FEDERAL DEPOSIT INSURANCE CORPORATION
OFFICE OF INSPECTOR GENERAL

Semiannual Report to the Congress




  title page




                   October
                       be 1, 2006
                              00 – Ma
                                   March
                                    a    31,
                                          1,, 2007
                                          Inspector
                                          General’s
                                          Statement




M My office continues to achieve
significant results as we carry out
the Office of Inspector General
(OIG) mission at the Federal Deposit
                                             District of Florida, a restitution order in
                                             the aggregate amount of $31.7 million
                                             was issued. The former Hamilton
                                             Bank chairman of the board and chief
Insurance Corporation (FDIC) through         executive officer (CEO) was ordered
audits, evaluations, investigations,         individually to pay a total of
and other operational activities. Over       $16.1 million to the FDIC, and
the past 6 months, we issued 11              $1.1 million to Twin City Fire Insurance
audit and evaluation reports with 35         Company. These amounts represent
nonmonetary recommendations to               restitution of losses suffered as a
management for enhancements in               result of the bank fraud for which
such areas as the FDIC’s supervision         the former chairman of the board
of financial institutions’ Office of         and CEO was convicted in May
Foreign Assets Control compliance            2006. As a result of the securities
programs, implementation of the              fraud for which he was convicted,
2005 amendments to the Community             the former chairman of the board
Reinvestment Act regulations,                and CEO was also ordered to pay
protection of information in an              $14.5 million in restitution, jointly and
identifiable form, information               severally, with his two co-defendants,
technology examination coverage              the former Hamilton president and
of financial institutions’ oversight of      the former chief financial officer.
technology service providers, and
                                              The OIG is especially proud of
the FDIC’s contract planning and
                                             Special Agent Gary Sherrill, from our
management for business continuity.
                                             Atlanta Office, whose investigative
  As discussed in more detail in our         efforts were instrumental in the
report, we also closed 30 criminal           successful outcome of the Hamilton
investigations, and our investigations       case. Gary’s outstanding work will
resulted in over $75 million in total        be acknowledged by FDIC Chairman
fines, restitution, and other potential      Sheila Bair at the Corporation’s
monetary recoveries. Of great                annual award ceremony in early May
significance, during the reporting           when he will receive the Chairman’s
period, at the conclusion of one of the      Award for Excellence for his individual
OIG’s most successful investigations, in     efforts in this case. We are honored
the U.S. District Court for the Southern     by the Chairman’s recognition of

                              Office of Inspector General – Semiannual Report to the Congress 3
 Gary’s investigation of a highly                  Inspector General community, and
 complex financial institution fraud               the Government Accountability
 and his efforts to ensure the nation’s            Office. These activities are proving
 banks operate safely and soundly.                 highly beneficial and will continue
                                                   as we plan for 2008 and 2009.
   During the reporting period, I
 selected Sara Gibson to serve as                   I am especially grateful to FDIC
 Assistant Inspector General for                   Chairman Bair for her support of
 Investigations. I also announced a                my office over the past months.
 reorganization of the OIG to include              Similarly, FDIC Vice Chairman
 an Office of Evaluations that would               Gruenberg, who also chairs the
 be separate from our Office of Audits.            FDIC Audit Committee, continues to
 The Evaluations group, led by Stephen             endorse the role of the FDIC OIG, as
 Beard, Assistant Inspector General                evidenced by his recent remarks at
 for Evaluations and Management, is                our OIG-wide conference in April.
 undertaking a number of assignments
                                                     In closing, I underscore the theme
 designed to provide independent,
                                                   of that recent OIG conference—
 objective information to facilitate FDIC
                                                   Change, Challenge, Choices.The
 management decision-making and
                                                   OIG has experienced significant
 improve operations. The group has
                                                   changes over the past months and,
 already completed several successful
                                                   like everyone at the FDIC, is attuned
 engagements. We have also continued
                                                   to changes and emerging risks in
 implementing a number of internal
                                                   the financial services industry and
 OIG initiatives to build and sustain a
                                                   the regulatory arena everyday. These
 high-quality OIG work environment.
                                                   changes pose challenges to us all.
 In that connection, over the past
                                                   Our choice is and will continue
 6 months we have initiated many
                                                   to be to approach the challenges
 projects to promote professional
                                                   with a positive attitude of service
 training and development of our staff.
                                                   to the Corporation and the public
 We have also engaged in a number
                                                   interest. We are honored to do so.
 of stakeholder outreach efforts to
 maintain mutually beneficial working
 relationships with the Congress,
 corporate officials, others in the                Jon T. Rymer
                                                   Inspector General
                                                   April 30, 2007

4 Office of Inspector General – Semiannual Report to the Congress
                                                 Table of Contents




IG
 Inspector General’s Statement.................................................................... 3
 Highlights and Outcomes ........................................................................... 7
 Strategic Goal Areas
 Supervision: Assist the FDIC to Ensure the Nation’s
              Banks Operate Safely and Soundly .......................................... 11
 Insurance: Help the FDIC Maintain the Viability of the
            Insurance Fund ......................................................................... 31
 Consumer Protection: Assist the FDIC to Protect Consumer Rights
                      and Ensure Customer Data Security and Privacy......... 33
 Receivership Management: Help Ensure that the FDIC is Ready
                          to Resolve Failed Banks and Effectively
                          Manages Receiverships ................................... 39
 Resources Management: Promote Sound Governance and Effective
                       Stewardship and Security of Human, Financial,
                       Information Technology, and Physical Resources .... 43
 OIG Internal Processes: Build and Sustain a High-Quality
                         OIG Work Environment ........................................ 51
 Reporting Requirements ............................................................................ 58
 Information Required by the Inspector General Act of 1978, as amended .... 59
 Abbreviations and Acronyms ...................................................................... 6




                                      Office of Inspector General – Semiannual Report to the Congress 5
 Abbreviations and
 Acronyms




   BCP          Business Continuity Plan
   BSA          Bank Secrecy Act
   CEO          chief executive officer
   CRA          Community Reinvestment Act
   DIT          Division of Information Technology
   DRR          Division of Resolutions and Receiverships
   DSC          Division of Supervision and Consumer Protection
   ECU          Electronic Crimes Unit
   FBI          Federal Bureau of Investigation
   FDIC         Federal Deposit Insurance Corporation
   FEDSIM       Federal Systems Integration Management Center
   GSA          General Services Administration
   IIF          information in an identifiable form
   ILC          industrial loan company
   ISB          intermediate small bank
   ISC          infrastructure services contract
   IT           Information Technology
   IT-RMP       Information Technology-Risk Management Program
   OA           Office of Audits
   OCC          Office of the Comptroller of the Currency
   OE           Office of Evaluations
   OERM         Office of Enterprise Risk Management
   OFAC         Office of Foreign Assets Control
   OI           Office of Investigations
   OIG          Office of Inspector General
   PCIE         President’s Council on Integrity and Efficiency
   SRA          SRA International, Inc.
   TSP          technology service provider




6 Office of Inspector General – Semiannual Report to the Congress
                                            Highlights and
                                            Outcomes




T The OIG’s 2007 Business Plan
contains five strategic goals that are
closely linked to the FDIC’s mission,
programs, and activities, and one
                                               strengthen the supervisory approach
                                               for ensuring financial institution
                                               compliance with Office of Foreign
                                               Assets Control compliance programs.
that focuses on the OIG’s internal
                                                 With respect to investigative work,
business and management processes.
                                               as a result of cooperative efforts with
These highlights show our progress
                                               U.S. Attorneys throughout the country,
in meeting these goals during the
                                               numerous individuals were prosecuted
reporting period. A more in-depth
                                               for financial institution fraud, and we
discussion of OIG audits, evaluations,
                                               achieved successful results in combating
investigations, and other activities
                                               a number of emerging mortgage
in pursuit of these goals follows.
                                               fraud schemes. Particularly noteworthy
                                               results include a restitution order in the
Strategic Goal 1                               aggregate amount of $31.7 million
Supervision: Assist the FDIC                   that was issued in connection with our
to Ensure the Nation’s Banks                   investigation of Hamilton Bank and
Operate Safely and Soundly                     bank fraud on the part of former bank
  Our work in helping to ensure                officers. The restitution was ordered
that the nation’s banks operate                on the former chairman of the board
safely and soundly takes the form of           and chief executive officer, and his
audits, investigations, evaluations,           co-defendants, the former president
and extensive communication and                and the former chief financial officer of
coordination with FDIC divisions and           the failed bank. In another significant
offices, law enforcement agencies,             case, in the U.S. District Court for
other financial regulatory OIGs, and           the District of Colorado, the former
banking industry officials. During             BestBank owner and chief executive
the reporting period, in audit reports         officer and chairman of the board of
issued, we made recommendations                directors, the former president and
to enhance protection from risks               director, and the former chief financial
associated with e-banking, ensure that         officer were found guilty of 15 felony
examinations adequately consider the           counts of fraud and conspiracy related
reliability of appraisals and sufficiency      to BestBank’s $248 million failure
of insurance coverage when evaluating          in 1998. (See pages 11-30.)
an institution’s lending activities, and

                                Office of Inspector General – Semiannual Report to the Congress 7
 Strategic Goal 2                                  of financial institutions’ oversight of
 Insurance: Help the FDIC                          technology service providers and
 Maintain the Viability of the                     made recommendations to help in
                                                   protecting customers from identity
 Insurance Fund
                                                   theft and institutions from fraud and
   Ongoing audit work related to the               reputational and other risks associated
 FDIC’s dedicated examiner program                 with unauthorized access to or use
 will help ensure that the Corporation’s           of customer information. As a result
 Dedicated Examiner Program is                     of audit work related to amendments
 contributing to the FDIC’s efforts to             to Community Reinvestment Act
 assess and quantify the risks posed               regulations, we suggested strengthened
 by large institutions to the Deposit              examiner guidance for implementing
 Insurance Fund. Given that the FDIC               and reporting on community
 is not generally the primary federal              development tests and development
 regulator for the largest financial               of a strategy for measuring the impact
 institutions, this program has placed             of amendments to the regulations.
 dedicated examiners in the six largest            From an investigative standpoint, our
 insured depository institutions to                Electronic Crimes Unit responded to
 work in cooperation with primary                  phishing schemes where the FDIC
 supervisors and bank personnel to                 and OIG Web sites were misused to
 obtain real-time access to information            entice consumers to divulge personal
 about the risk and trends in those                information and successfully shut
 institutions. (See pages 31-32.)                  down several Web sites used for such
                                                   purposes. The Electronic Crimes Unit
 Strategic Goal 3                                  was also successful in deactivating
 Consumer Protection: Assist the                   Web sites and/or fax numbers involving
 FDIC to Protect Consumer Rights                   fraudulent claims of FDIC insurance
 and Ensure Customer Data                          or affiliation. (See pages 33-38.)
 Security and Privacy
   Audits and investigations
 contributed to the FDIC’s protection
 of consumers in several ways. We
 issued a report on information
 technology (IT) examination coverage

8 Office of Inspector General – Semiannual Report to the Congress
Strategic Goal 4                              Strategic Goal 5
Receivership Management:                      Resources Management:
Help Ensure that the FDIC                     Promote Sound Governance
is Ready to Resolve Failed                    and Effective Stewardship and
Banks and Effectively Manages                 Security of Human, Financial, IT,
Receiverships                                 and Physical Resources
  We gained a better understanding              We issued several audit and
of the implications of a large bank           evaluation reports in this goal area
failure through monitoring of a large         and made recommendations to
bank resolution scenario. We also             strengthen contract planning and
began an assignment to evaluate the           management for business continuity,
design and implementation of selected         ensure appropriate use of information
controls established by the Division          in an identifiable form and enhanced
of Resolutions and Receiverships              protection of sensitive FDIC data,
to safeguard sensitive information            strengthen contract administration and
collected and maintained in electronic        oversight of IT support services for the
form in resolution and receivership           Corporation, and improve information
activities at FDIC-insured institutions.      security controls. We reported on
We continued to pursue concealment            the FDIC’s succession planning
of assets investigations related to the       efforts. We also promote integrity
more than $1.7 billion in criminal            in FDIC internal operations through
restitution that the FDIC is owed. In         ongoing OIG Hotline referrals,
connection with one such case worked          investigations of employee cases,
in conjunction with the FDIC Legal            and coordination with the FDIC’s
Division, during the reporting period         Ethics Office. (See pages 43-50.)
the former chief executive officer of
Sunbelt Savings and Loan, Dallas,             Strategic Goal 6
Texas, was sentenced to 97 months             OIG Internal Processes: Build
of incarceration and ordered to pay a         and Sustain a High-Quality OIG
criminal forfeiture of more than              Work Environment
$2 million to the U.S. government and
restitution of more than $300,000              We focused increased attention on
to the FDIC. (See pages 39-42.)               a number of activities in this goal
                                              area during the past 6 months. We

                               Office of Inspector General – Semiannual Report to the Congress 9
  encouraged individual growth through           Significant Outcomes
  professional development by way                (October 2006 - March 2007)
  of initiatives such as training and
                                                  Audit and Evaluation Reports Issued                                    11
  development and career development
  plans for OIG staff and expanding               Nonmonetary Recommendations                                            35

  the OIG mentoring program. We                   Investigations Opened                                                  32
  also strengthened human capital                 Investigations Closed                                                  30
  management and leadership                       OIG Subpoenas Issued                                                   25
  development by developing end-of-               Judicial Actions:
  assignment feedback mechanisms
                                                  Indictments/Informations                                               18
  for staff, incorporating leadership
                                                  Convictions                                                            26
  training in training and development
  plans, and updating the OIG’s                   OIG Investigations Resulted in:
  business continuity and emergency               Fines of                                                             $675
  preparedness plans and procedures.              Restitution of                                                 $70,062,511
  Our office continued to foster positive         Asset Forfeiture of                                             $5,500,000
  stakeholder relationships by way of             Total                                                         $75,563,186
  OIG executives meetings with FDIC
                                                  Cases Referred to the Department of Justice (U.S. Attorney)            27
  executives; presentations at Audit
  Committee meetings; congressional               Cases Referred to FDIC Management                                       2
  interaction; coordination with financial        OIG Cases Conducted Jointly with Other Agencies                       111
  regulatory OIGs, other members of               Hotline Allegations Referred                                           79
  the Inspector General community,                Proposed Regulations and Legislation Reviewed                           3
  other law enforcement officials, and
                                                  Proposed FDIC Policies Reviewed                                        21
  the Government Accountability Office.
  New members of the OIG Employee                 Responses to Requests and Appeals under                                 4
                                                  the Freedom of Information Act
  Advisory Group took office, and we
  maintained and updated the OIG
  Web site to provide easily accessible             effective and secure IT, we continued
  information to parties interested in our          to coordinate closely with the FDIC’s
  office and the results of our work.               Division of Information Technology.
                                                    We are also taking steps to identify
    We conducted internal quality                   and evaluate options and requirements
  reviews of Office of Audits assignments           needed to streamline, enhance, and
  and various Office of Investigations              improve collection and reporting of
  operational components and began                  information to manage OIG audits
  work to revise audit policies and                 and evaluations. We implemented
  procedures to address changes in                  upgrades to the OIG’s training system
  the 2007 revision to Government                   and updated the OIG’s internal
  Auditing Standards, process changes               Business Plan 2007 Dashboard to
  resulting from an internal assignment             capture progress on achievement
  management review, and external                   of strategic and performance
  peer review results. To ensure cost-              goals. (See pages 51-56.)
10 Office of Inspector General – Semiannual Report to the Congress
                                            Strategic Goal 1:
                                            Supervision: Assist
                                            the FDIC to Ensure
                                            the Nation’s Banks
                                            Operate Safely and
                                            Soundly




B Bank supervision is fundamental to
the FDIC’s efforts to ensure stability
and public confidence in the nation’s
financial system. As of December
                                               regulator for a number of ILCs,
                                               which are limited-charter depository
                                               institutions. ILCs may be owned by
                                               commercial firms, and these parents
31, 2006, the FDIC was the primary             may not be subject to consolidated
federal regulator for 5,220 FDIC-              supervision by a federal banking
insured, state-chartered institutions          regulator. As of September 30, 2006,
that were not members of the Federal           there were 58 operating ILCs with
Reserve System (generally referred to          aggregate total assets of $177 billion.
as “state non-member” institutions).           The FDIC must establish and maintain
The Department of the Treasury (the            effective controls in its processes for
Office of the Comptroller of the               granting insurance to, supervising,
Currency and the Office of Thrift              and examining ILCs, taking into
Supervision) or the Federal Reserve            consideration the relationship between
Board supervise other banks and                the ILC and its parent company and the
thrifts, depending on the institution’s        effect of such a relationship on the ILC.
charter. While the number of institutions      This is especially important when the
where the FDIC is the primary federal          ILC’s parent company is not subject to
supervisor showed a steady decline             the scope of consolidated supervision,
over the past 4 years, the dollar value        consolidated capital requirements,
of assets held by those institutions           or enforcement actions imposed
showed a steady increase during the            on parent organizations subject to
same period. The Corporation also              the Bank Holding Company Act.
has back-up examination authority
                                                 In recent years, the banking industry
to protect the interests of the deposit
                                               has been marked by consolidation,
insurance fund for more than 3,473
                                               globalization, and the development
(as of December 31, 2006) national
                                               of increasingly complex investment
banks, state-chartered banks that
                                               strategies available to banks. Bank
are members of the Federal Reserve
                                               regulators, both domestically and
System, and savings associations.
                                               internationally, have devised new
  Another important aspect of the              standards for bank capital requirements
FDIC’s supervisory responsibilities            commonly referred to as Basel IA
relates to industrial loan companies           and Basel II. The FDIC and the other
(ILCs). The FDIC is the primary federal        bank regulators continue to assess

                               Office of Inspector General – Semiannual Report to the Congress 11
  the potential impact of new standards               Part of the FDIC’s overall responsibility
  on bank safety and soundness.                     and authority to examine banks
                                                    for safety and soundness is the
    The FDIC has adopted a risk-focused
                                                    responsibility for examining state-
  approach to examining financial
                                                    chartered non-member financial
  institutions to minimize regulatory
                                                    institutions for compliance with the
  burden and direct its resources to those
                                                    Bank Secrecy Act (BSA). The BSA
  areas that carry the greatest potential
                                                    requires financial institutions to
  risk. The FDIC must also ensure that
                                                    keep records and file reports on
  financial institutions have adequate
                                                    certain financial transactions. FDIC-
  corporate governance structures
                                                    supervised institutions must establish
  relative to the bank’s size, complexity,
                                                    and maintain procedures to assure
  and risk profile to prevent financial
                                                    and monitor compliance with BSA
  losses and maintain confidence in
                                                    requirements. An institution’s level of
  those entrusted with operating the
                                                    risk for potential money laundering
  institutions. The FDIC’s follow-up
                                                    determines the necessary scope of the
  processes must be effective to ensure
                                                    BSA examination. In a related vein,
  institutions are promptly complying with
                                                    the U.S. Department of the Treasury’s
  supervisory actions that arise as a result
                                                    Office of Foreign Assets Control
  of the FDIC’s examination process.
                                                    (OFAC) promulgates, develops, and
    The Corporation is also faced with              administers economic and trade
  developing and implementing programs              sanctions such as trade embargoes,
  to minimize the extent to which the               blocked assets controls, and other
  institutions it supervises are involved in        commercial and financial restrictions
  or the victims of financial crimes and            under the provisions of various laws.
  other abuse. Increased reliance by both           Generally OFAC regulations prohibit
  financial institutions and non-financial          financial institutions from engaging in
  institution lenders on third-party brokers        transactions with the governments of, or
  has also increased opportunities for              individuals or entities associated with,
  increased real-estate frauds, including           foreign countries against which federal
  property flipping and other mortgage              law imposes economic sanctions.
  frauds. Examiners must be alert to                Sanctions can also be used against
  the possibility of such fraudulent                international drug traffickers, terrorists,
  activity in financial institutions—it is          or foreign terrorist organizations,
  purposeful and often hard to detect.              regardless of national affiliation.

12 Office of Inspector General – Semiannual Report to the Congress
  In its role as supervisor, the FDIC           • Protect and ensure the
also analyzes data security threats,              effectiveness and efficiency of the
occurrences of bank security breaches,            FDIC’s Supervision Program, and
and incidents of electronic crime that
                                                • Assist FDIC efforts to detect
involve financial institutions. Misuse
                                                  and prevent BSA violations,
and misappropriation of personal
                                                  money laundering, terrorist
information are emerging as major
                                                  financing, fraud, and other financial
developments in financial crime.
                                                  crimes in FDIC-insured institutions.
Despite generally strong controls and
practices by financial institutions,           OIG Work in Support of Goal 1
methods for stealing personal data               The OIG’s Office of Audits issued
and committing fraud with that                 three reports in the Supervision area
data are continuously evolving.                in furtherance of our safety and
  The OIG’s role under this strategic          soundness-related goal during the
goal is conducting audits and                  reporting period, as discussed below.
evaluations that review the effectiveness      Division of Supervision
of various FDIC programs and                   and Consumer Protection’s
examination processes aimed at                 Information Technology-Risk
providing continued stability to               Management Program
the nation’s banks. Another major
means of achieving this goal is                  Interagency guidelines require
through investigations of fraud at             financial institutions to implement a
FDIC-supervised institutions; fraud            comprehensive written information
by bank officers, directors, or other          security program. To ensure that
insiders; fraud leading to the failure         FDIC-supervised financial institutions
of an institution; fraud impacting             implement adequate information
multiple institutions; and fraud               security program controls, the
involving monetary losses that could           Corporation conducts periodic
significantly impact the institution.          onsite information technology (IT)
                                               examinations and, in August 2005,
  To assist the FDIC to ensure                 the Division of Supervision and
the nation’s banks operate safely              Consumer Protection (DSC) established
and soundly, the OIG’s 2007                    the Information Technology-Risk
performance goals are as follows:              Management Program (IT-RMP). IT-RMP
                                               replaced the broad-based technology

                                Office of Inspector General – Semiannual Report to the Congress 13
  and control reviews conducted under               methodology examiners should use
  the former IT examination program.                in deriving the IT composite rating for
                                                    a financial institution. Such clarified
    During the reporting period, we
                                                    guidance would increase assurance
  conducted an audit to determine
                                                    that IT ratings accurately and
  whether the FDIC has established and
                                                    consistently reflect the effectiveness
  implemented adequate procedures
                                                    of an institution’s IT risk management
  for addressing IT security risks at
                                                    practices and the adequacy of its
  FDIC-supervised institutions that
                                                    information security program.
  offer electronic banking products
  and services. We focused this                       We made seven recommendations
  review on the IT-RMP and DSC’s                    to enhance the tools and guidance
  examiner training framework in                    under the IT-RMP methodology
  relationship to the new program.                  and the IT training programs. FDIC
                                                    management generally agreed
    We reported that DSC has established
                                                    with our recommendations and is
  procedures within the IT-RMP for
                                                    taking responsive action to review
  addressing IT security risks at FDIC-
                                                    DSC’s tools, guidance, and training
  supervised financial institutions.
                                                    programs as part of an evaluation
  These procedures address most of
                                                    of the first year of performance
  the information security requirements
                                                    under the IT-RMP program.
  contained in interagency guidance.
  Our review of 12 IT examinations                  FDIC’s Supervision of Financial
  found that examiners generally followed           Institutions’ Compliance with
  the procedures outlined in the IT-RMP.            Office of Foreign Assets Control
  We also noted that improvements                   Compliance Programs
  to the IT-RMP program would help
                                                     During the reporting period, we
  to ensure adequate and consistent
                                                    conducted an audit to determine
  implementation of the IT-RMP and
                                                    whether the FDIC’s DSC provides
  related examination procedures.
                                                    effective supervision of compliance
    Specifically, DSC could revise certain          with OFAC regulations by FDIC-
  IT-RMP tools to assist examiners in               supervised institutions.
  more effectively identifying relevant
                                                     We determined that the FDIC’s
  IT security risks to be assessed.
                                                    supervisory approach to OFAC
  Additionally, updated IT-RMP guidance
                                                    compliance includes examinations
  could more clearly address the
14 Office of Inspector General – Semiannual Report to the Congress
of controls established and                 financial institution OFAC sanctions
implemented by FDIC-supervised              violations, compliance program
financial institutions to ensure            deficiencies, and OFAC-related
compliance with OFAC regulations.           enforcement actions; and issuing
For the examinations we reviewed,           additional guidance to examiners to
FDIC examiners generally followed           ensure consistent and comprehensive
interagency guidelines in assessing         documentation of OFAC compliance to
the appropriateness of implemented          better assist the FDIC and subsequent
controls and whether those controls         examination teams in ensuring
were commensurate with the financial        financial institution compliance with
institutions’ specific product lines,       OFAC laws and regulations. DSC
customer base, nature of transactions,      management concurred with two of
and identification of high-risk             our four recommendations in this
areas. In addition, the FDIC has            regard and agreed with the intent of
taken important steps to address            the remaining two recommendations.
institutions’ OFAC compliance, such         Management’s comments were
as participating in developing and          responsive to all recommendations.
issuing interagency guidance for
                                              We also identified a matter for
examiners and banking organizations,
                                            congressional consideration regarding
including notifications on updates
                                            examination and enforcement
to OFAC’s Specially Designated
                                            authorities associated with institution
Nationals and Blocked Entities list;
                                            compliance with OFAC regulations.
conducting OFAC-related training and
                                            Specifically, a more comprehensive
outreach activities for examiners and
                                            statutory and regulatory framework
the banking industry; issuing BSA-
                                            exists for the examination and
related cease and desist orders that
                                            enforcement of BSA compliance and
included OFAC-related provisions; and
                                            the establishment of BSA compliance
signing an interagency Memorandum
                                            programs than for OFAC compliance,
of Understanding, which governs
                                            although both BSA and OFAC
information-sharing between the
                                            requirements address national security
Federal Banking Agencies and OFAC.
                                            and law enforcement concerns.
  We noted that DSC could enhance
its supervisory approach to OFAC
compliance by monitoring and tracking

                             Office of Inspector General – Semiannual Report to the Congress 15
  Examination Assessment of                         examination documentation that
  the Reliability of Appraisals                     examiners had specifically considered
  and Sufficiency of Insurance                      the reliability of appraisals as part of
  Coverage for Real Estate Lending                  an institution’s real estate appraisal
                                                    program. As a result, there was
   Another of our audits during the
                                                    inadequate assurance that these
  reporting period was designed to
                                                    institutions were complying with the
  determine whether FDIC examiners
                                                    minimum appraisal standards in the
  adequately consider the reliability of
                                                    FDIC Rules and Regulations designed
  appraisals and sufficiency of insurance
                                                    to ensure the reliability of appraisals.
  coverage for collateral as part of an
  assessment of an institution’s lending              Overall, the examinations we
  policies, procedures, and practices               reviewed adequately considered the
  related to real estate loans. This                sufficiency of property insurance and
  audit focused primarily on institution            flood insurance coverage for collateral
  and examination guidance.                         on real estate loans; however, we
                                                    identified one area of concern. This
    We found that the FDIC’s guidance
                                                    area relates to ensuring that institutions
  to institutions and examiners on the
                                                    have adequate controls to avoid
  reliability of appraisals and sufficiency
                                                    flood insurance lapses in cases where
  of property and flood insurance
                                                    escrowing is not performed. Both
  for real estate loans was generally
                                                    the borrowers and the institutions
  adequate. As for the application of
                                                    are exposed to a greater risk of an
  existing examination guidance, based
                                                    uninsured loss from flooding during
  on a limited sample of 11 institutions,
                                                    a period of lapsed insurance.
  we found that examiners had reviewed
  appraisal information as part of their              Finally, we learned that a lapse in
  assessment of a financial institution’s           flood insurance coverage can occur in
  residential real estate lending and               situations where a financial institution
  loan portfolio management. We                     that is not escrowing for flood
  also found that examiners had                     insurance premiums must purchase
  considered the sufficiency of property            flood insurance because a borrower
  and flood insurance for the 11                    has not maintained such coverage.
  examinations. However, for 6 of                   This lapse can occur because the
  the 11 examinations we reviewed,                  required 45-day waiting period
  we found limited evidence in the                  under the Flood Disaster Protection

16 Office of Inspector General – Semiannual Report to the Congress
Act—after which a financial institution       with weakened credit histories
is required to purchase flood insurance       typically characterized by payment
on behalf of the borrower—is longer           delinquencies, previous charge-offs,
than the 30-day grace period, as set          judgments, or bankruptcies. Over
forth in National Flood Insurance             the years, subprime lending volumes
Program guidelines, during which              have increased significantly. In July
insurance coverage remains in effect          2001, federal banking regulatory
after expiration. Thus, the borrower          agencies issued expanded examination
and financial institution may have            guidance on subprime lending. Our
no flood insurance coverage for 15            approach to auditing this area is to
days or more until the institution is         look at subprime practices related
able to purchase flood insurance on           to specific business lines, namely
behalf of the borrower. We provided           mortgages, credit cards, and
this information to assist the Congress       automobile loans. Our first focus is
in considering whether legislative            on subprime credit card banks.
action regarding flood insurance
                                                Another significant assignment in this
would help reduce the risk associated
                                              area relates to implementation of the
with flood insurance policy lapses.
                                              USA Patriot Act. We are conducting
  Our report recommended that                 audit work to determine whether
DSC enhance guidance related                  examination procedures are designed
to (1) examiners ensuring the                 to evaluate institution compliance
reliability of appraisals and (2)             with the anti-money laundering and
institutions addressing the need for          terrorist financing provisions of the
adequate controls to avoid lapses             Act and whether those procedures are
in flood insurance coverage. DSC              fully and consistently implemented
management concurred with the                 to provide reasonable assurance
findings and recommendations.                 that institutions with weak programs
Ongoing Audit Work                            for detecting money laundering
                                              and terrorist financing activity
  The OIG’s ongoing work in this              will be identified and appropriate
strategic goal area includes a                corrective measures imposed.
review of the FDIC’s oversight of
subprime lending at FDIC-supervised
institutions. Subprime lending refers
to programs that target borrowers
                               Office of Inspector General – Semiannual Report to the Congress 17
  Successful OIG Investigations                     $31.7 million was issued in the
  Uncover Financial                                 Hamilton Bank (Hamilton) case. The
  Institution Fraud                                 former Hamilton chairman of the
                                                    board and chief executive officer was
    The OIG’s Office of Investigations’
                                                    ordered individually to pay a total of
  work focuses largely on fraud
                                                    $16.1 million to the FDIC, and $1.1
  that occurs at or impacts financial
                                                    million to Twin City Fire Insurance
  institutions. The perpetrators
                                                    Company (Twin City). These amounts
  of such crimes can be those
                                                    represent restitution of losses suffered
  very individuals entrusted with
                                                    as a result of the bank fraud for which
  governance responsibilities at the
                                                    the former chairman of the board
  institutions—directors and bank
                                                    was convicted in May 2006. The
  officers. In other cases, individuals
                                                    restitution to Twin City will reimburse
  providing professional services to
                                                    the company for money previously
  the banks, others working inside the
                                                    paid to the FDIC pursuant to a civil
  bank, and customers themselves are
                                                    settlement following Hamilton’s failure.
  principals in fraudulent schemes.
                                                      As a result of the securities fraud
    The following cases from the
                                                    for which he was convicted, the
  reporting period are illustrative
                                                    former chairman of the board was
  of some of the OIG’s success in
                                                    also ordered to pay $14.5 million
  pursuing strategic goal 1 during
                                                    in restitution, jointly and severally,
  the reporting period. These cases
                                                    with his two co-defendants, the
  reflect the cooperative efforts of
                                                    former Hamilton president and the
  OIG investigators, FDIC divisions
                                                    former chief financial officer.
  and offices, U.S. Attorneys
  Offices, and others in the law                      On May 10, 2006, the former
  enforcement community.                            chairman of the board was convicted
                                                    by a jury of all charges against him
  Convicted Hamilton Bank Officers                  following a month-long trial in Miami,
  Ordered to Pay $32 Million in Total               Florida. He was found guilty of each
  Restitution for Bank and Securities Fraud         of the 10 objects of the conspiracy
    On October 20, 2006, in the                     contained in the second superseding
  U.S. District Court for the Southern              indictment. He was also convicted
  District of Florida, a restitution order          of each of the 15 substantive
  in the aggregate amount of                        counts charged in the indictment.

18 Office of Inspector General – Semiannual Report to the Congress
                                     Those charges consisted of wire               their accountants regarding the true
                                     fraud, bank fraud, securities fraud,          financial health of Hamilton Bancorp
                                     obstruction of a bank examination,            and Hamilton Bank. In 1998 and
                                     false statements, and obstruction of          1999, the three defendants engaged
                                     an agency proceeding. The former              in swap transactions (or “adjusted
                                     president pleaded guilty to two               price trades”) to hide Hamilton Bank’s
                                     counts of securities fraud, and the           losses on certain loans, including
                                     former chief financial officer pleaded        more than $22 million in losses in
                                     guilty to one count of securities             1998, and falsely accounted for the
                                     fraud and one count of obstruction            transactions to make it appear that
                                     of a formal agency proceeding.                no losses had been incurred. While
OIG Special Agent Gary Sherrill,
                                     Both men pleaded guilty before                the defendants falsely reported the
recipient of the FDIC Chairman's     the trial and cooperated with the             nature of the swap transactions to the
2006 Award for Excellence, was
instrumental in the successful       government during the investigation.          investing public and the regulators,
outcome of the Hamilton Bank case.
                                      On July 26, 2006, the former                 the indictment cited recorded
                                     chairman of the board was                     conversations in which the defendants
                                     sentenced to a total of 30 years              openly discussed the transactions
                                     of incarceration and 36 months                as swaps. During 1998, Hamilton
                                     of supervised release. The former             Bancorp had a market capitalization
                                     president and chief financial officer         of more than $300 million.
                                     were each sentenced to serve 28                 Hamilton Bank was South Florida’s
                                     months in prison, to be followed by           highest profile trade finance bank
                                     24 months of supervised release.              before it ran into trouble with its
                                       The defendants participated in              regulator, the OCC, over a number
                                     a fraudulent scheme whereby                   of issues, including the questionable
                                     they falsely inflated the results of          loan swaps that allowed the bank
                                     operations, earnings, and financial           to hide $22 million in losses in
                                     condition of Hamilton Bancorp in the          1998. The OCC closed the bank in
                                     Securities and Exchange Commission            January 2002, and the FDIC took on
                                     filings; obstructed the Office of the         liquidation responsibilities as receiver.
                                     Comptroller of the Currency’s (OCC)             Investigation conducted by the FDIC OIG;
                                     examination of Hamilton Bank;                 prosecuted by the U.S. Attorney’s Office
                                                                                   for the Southern District of Florida.
                                     and lied to the investing public, the
                                     bank and securities regulators, and

                                                                    Office of Inspector General – Semiannual Report to the Congress 19
  Judge Convicts Former BestBank Executives         market interest rates. In July 1998,
  of Fraud Related to 1998 BestBank Failure         the bank was closed. The Colorado
    On February 12, 2007, in the                    State Banking Commissioner and
  U.S. District Court for the District              the FDIC determined that the value
  of Colorado, the former BestBank                  of the subprime credit card loans
  owner and chief executive officer                 maintained as an asset on the
  and chairman of the board of                      books of BestBank was overstated
  directors, the former president                   because delinquent loans were
  and director, and the former chief                fraudulently made to appear non-
  financial officer, were found guilty              delinquent. BestBank’s liability to its
  of 15 felony counts of fraud and                  depositors exceeded the value of its
  conspiracy relating to BestBank’s                 other assets, making it insolvent and
  $248 million failure in 1998.                     one of the largest bank failures.
    After a 3-week trial in August 2005,              BestBank entered into agreements
  other co-defendants—the owners                    with Century Financial to market
  of Century Financial Services, Inc.               the BestBank credit cards to sub-
  and its successor Century Financial               prime borrowers. Century Financial
  Group, Inc., were found guilty by                 sold $498 travel club memberships,
  a federal jury on charges of bank                 marketed first through Universal Tour
  fraud, wire fraud, filing false bank              Travel Club and later through All
  reports, and continuing a financial               Around Travel Club. In almost every
  crimes enterprise in connection with              instance, those who signed up for
  the 1998 failure of BestBank.                     the travel club did not pay cash for
                                                    their membership. Instead, BestBank
    From 1994 through July 1998, all                and Century Financial offered to
  of these defendants jointly engaged               finance a travel club membership
  in a business operation that made                 for sub-prime borrowers using a
  more than 500,000 BestBank credit                 newly issued BestBank VISA credit
  card loans to subprime borrowers.                 card. The credit limit for the sub-
  Subprime credit card borrowers are                prime borrowers as provided by
  high-risk borrowers with poor credit              the bank was $600. BestBank also
  histories. The credit card accounts               charged fees, which immediately
  were funded by BestBank using                     brought the borrowers close to the
  money from depositors. BestBank                   credit limit. Less than half of those
  attracted depositors by offering above-

20 Office of Inspector General – Semiannual Report to the Congress
who signed up for the travel club               Joint investigation by the FDIC OIG,
received their membership materials.          the Federal Bureau of Investigation (FBI),
                                              and the Internal Revenue Service Criminal
  The defendants carried out a                Investigative Division; prosecuted by the U.S.
fraudulent scheme in several                  Attorney’s Office for the District of Colorado.
ways. Most people did not pay the
mandatory $20 service fee required            Former Exchange Bank President
before the account was funded. Over           Indicted on 13 Counts of Bank Fraud
50 percent of the sub-prime borrowers’          On December 12, 2006, the former
accounts were non-performing.                 president of Exchange Bank, Gibbon,
  BestBank and Century Financial, in          Nebraska, was indicted on eight counts
many instances, did not send the sub-         of bank fraud, four counts of making
prime borrowers their credit card or          false bank entries, and one count of
monthly statements. The two owners            making a false statement to the FDIC.
of Century Financial fraudulently             Exchange Bank lost approximately
concealed the sub-prime borrowers’            $1 million due to the alleged
non-performance and delinquency               fraudulent activities of the defendant.
rates by reporting non-performing               The indictment alleges that from July
accounts as performing. The Century           2001 through June 2004, the former
owners paid $20 to some accounts so           president entered into loan agreements
they would appear to be performing            and loaned money from the bank to
when, in fact, they were not.                 individuals for the purpose of inflating
  BestBank was an FDIC-regulated              his loan portfolio with Exchange Bank.
institution that was closed on July 23,       When the loans were not paid off,
1998, by the Colorado State Banking           the former president would take the
Commission and the FDIC, making               money out of third parties' accounts
it one of the largest bank failures in        with the bank without the account
the United States in the last 10 years.       holders’ knowledge in order to make
Depositors’ losses exceeded $200              payments on suspect creditors’ loans
million. The FDIC’s Bank Insurance            and would then falsify documents to
Fund covered all depositors’ losses           cover up the illegal transactions.
except for $27 million of deposits             In addition, the defendant allegedly
which exceeded the $100,000                   directed individuals to provide false
per-account insurance limit.                  vehicle inventories and real estate

                               Office of Inspector General – Semiannual Report to the Congress 21
  information to falsely represent                  Former President and CEO of
  collateral for questionable loans. He             Farmers Deposit Bank Charged
                                                    in a 30-Count Indictment
  allegedly signed and approved the
  false financial documents, which gave               On December 7, 2006, the former
  the impression that collateral was                president and CEO of Farmers Deposit
  available for the loan in question,               Bank, Eminence, Kentucky, was
  when in fact, the collateral stated did           charged in the U.S. District Court for
  not exist and the financial documents             the Eastern District of Kentucky, with 29
  were materially false and inflated.               counts of bank fraud and one count
  When the defendant received                       of misapplication of bank funds.
  cash payments from individuals
                                                      The indictment charged that the
  with questionable loans, he would
                                                    defendant concealed substantial
  not apply those cash transactions
                                                    losses to the bank by various methods,
  to loan payments but kept those
                                                    including making loans under false
  payments for his own use.
                                                    or misleading names to nominee
    The indictment also alleges that the            borrowers in an effort to keep other
  defendant provided cashier’s checks               loans current. The defendant was
  to third parties and would falsify or             also charged with altering documents
  fail to provide proper documentation              (or causing documents to be altered)
  for the entry of the cashier’s check.             that were presented to the Farmers’
  These checks would then be provided               Board of Directors, altering loan
  to third parties for the benefit of               documents to postpone due dates, and
  both the former bank president and                structuring loans to avoid detection
  the third party, without proper funds             by the bank’s Board of Directors.
  to support the transaction, thereby               The indictment also charged that the
  causing a loss to Exchange Bank.                  defendant misapplied the proceeds of
   Joint investigation by the FDIC OIG              a loan and released solvent borrowers
  and the FBI, based on a referral from             from their loan obligations before
  DSC; prosecuted by the U.S. Attorney’s            the obligations were satisfied.
  Office for the District of Nebraska.
                                                      Joint investigation by the FDIC OIG and
                                                    the FBI based upon a referral from the
                                                    FDIC Legal Division and DSC; prosecution
                                                    is being handled by the U.S. Attorney’s
                                                    Office for the Eastern District of Kentucky.



22 Office of Inspector General – Semiannual Report to the Congress
Former President of Canton State               of the loan proceeds to the former
Bank and His Wife Plead Guilty to
                                               president. In some cases, the payee on
Bank Fraud and False Statements
                                               those checks was listed as the former
  On February 8, 2007, in the                  president’s wife’s minor child in order
U.S. District Court for the Eastern            to conceal the payments to him.
District of Missouri, the former
                                                 As part of his plea agreement, the
president of Canton State Bank
                                               former president also stipulated to
and his wife pleaded guilty to fraud
                                               an action under 8(e) of the Federal
charges involving false statements
                                               Deposit Insurance Act, which provides
to obtain loans and nominee
                                               for a lifetime ban from banking.
loans. As previously reported, the
defendants were charged in a 26-                 Joint investigation by the FDIC OIG, the
                                               FBI, and the U.S. Department of Agriculture
count indictment in June 2006.
                                               OIG, based on a referral from DSC;
  The indictment charged that                  prosecuted by the U.S. Attorney’s Office
                                               for the Eastern District of Missouri.
between October 2001 and August
2004, the defendants understated
their liabilities on loan applications         Former Vice President of Alliance
with Canton State Bank, The Paris              Bank Charged with Bank Fraud
National Bank, Perry State Bank, Bank            During this reporting period in the
of Monticello, and the Farm Service            U.S. District Court for the District of
Agency. In addition, the defendants            Minnesota, the former vice president
represented to Perry State Bank and            of Private Banking, Alliance Bank,
the Farm Service Agency that the               New Ulm, Minnesota, was charged
livestock and farm equipment that              with one count of conspiracy, three
they pledged as collateral security            counts of forged securities, seven
for loans was free and clear of all            counts of embezzlement by a bank
other liens and encumbrances, when             officer, and four counts of mail
they had previously pledged the                fraud. The defendant was a primary
same collateral for other loans.               lending officer at the bank’s Edina
 Further, between August 2002 and              branch office where she specialized
May 2003, the former president                 in larger commercial loans and
allegedly made numerous loans to               lending to borrowers of higher net
a bank customer, who then wrote                worth. Alliance Bank management
checks to return a substantial portion         terminated her employment based on

                                Office of Inspector General – Semiannual Report to the Congress 23
  questionable lending judgment and                 misapplication by a bank officer for
  unauthorized lending that caused                  their involvement in the scheme.
  losses in excess of $1.1 million.                   Joint investigation by the FDIC OIG and FBI,
                                                    based on a referral from DSC; prosecution
    In late 2005, an internal bank
                                                    is being handled by the U.S. Attorney’s
  investigation uncovered numerous                  Office for the District of Minnesota.
  defalcations attributed to the defendant
  and two other senior bank employees.
                                                    Bank Employee Indicted for Stealing
  According to the indictment, the                  Over $3.2 Million from BancFirst
  defendant used her position as a loan
  officer to divert for her own use funds             On February 16, 2007, the former
  that customers paid to the bank as well           vault teller and teller supervisor
  as fictitious fees she tricked customers          at a branch office of BancFirst in
  into paying. At times, she forged check           Seminole, Oklahoma, was indicted
  signatures and endorsements. In an                in the U.S. District Court for the
  attempt to conceal her embezzlement,              Eastern District of Oklahoma, on
  the defendant altered bank records                98 counts of false entries in the
  and made false statements when                    books of an FDIC-insured bank, one
  questioned by bank employees about                count of bank fraud, and one count
  specific transactions. Over a 4-year              of criminal forfeiture. The criminal
  period, the defendant and two co-                 forfeiture included a money judgment
  conspirators used the money obtained              of $3,263,695, forfeiture of real
  through this scheme for vacations,                property, including 11 motor vehicles
  home renovations and decorating,                  and tractors, electronic entertainment
  automobiles, cosmetic surgery,                    equipment, furniture, and jewelry.
  gambling, and country club dues. The                The defendant was employed at
  defendant and her co-conspirators                 BancFirst from June 1999 to on or
  embezzled approximately $1 million                about June 3, 2005. In her capacity,
  from the bank and its customers.                  she controlled the flow of money
   As previously reported, the other                in and out of the branch’s vault,
  two co-conspirators, the former                   teller drawers, and automated teller
  branch president/chief lending                    machines; prepared the daily vault
  officer and the former vice president             cash reconciliation reports; and was
  of commercial lending, pleaded                    responsible for reconciling several
  guilty to theft, embezzlement, or                 general ledger accounts within

24 Office of Inspector General – Semiannual Report to the Congress
the Seminole branch, including                     defendant earlier pleaded guilty in
the branch cash account and the                    July 2006 to a criminal information
branch cash in transit account.                    charging him with one count of bank
  The indictment alleges that the                  fraud. The defendant admitted to
defendant created false internal bank              devising a scheme to divert over $18
documents, which purported to show                 million of loan proceeds from creditors.
the movement of cash in and out of                   According to the information, the
the branch vault, and then, separately             defendant defrauded two financial
created false internal bank documents              institutions of loan payments owed by
to cure the account imbalances                     third-party borrowers. The defendant
caused by her initial false entries.               submitted falsified loan payment
The defendant also prepared, and                   documents and financial reports to
caused to be delivered to BancFirst                Lincoln State Bank, an FDIC-regulated
management, false vault cash                       institution, and Ottawa Savings
reconciliation reports, which overstated           Bank, an Office of Thrift Supervision-
the amount of cash in the branch                   regulated institution. Both financial
vault. The indictment also alleged the             institutions were FDIC insured.
defendant received approximately
                                                     These diverted funds represented
$3,263,695 from her criminal activity.
                                                   proceeds/payments against
  Joint investigation by the FDIC OIG              participation loan agreements
and the FBI; prosecution is being handled
by the United States Attorney’s Office
                                                   between third-party borrowers and
for the Eastern District of Oklahoma.              15 financial institutions. Commercial
                                                   Loan Corporation, Inc., Oak Brook,
                                                   Illinois, a company controlled by the
Bank Customer Sentenced to 8 Years
in Prison for $18 Million Bank Fraud               defendant, brokered commercial
                                                   loans between the affected borrowers
 On November 1, 2006, in the                       and lenders. As part of this service,
U.S. District Court for the Northern               Commercial Loan Corporation, Inc.,
District of Illinois, a bank customer              provided collection/payment services
of Lincoln State Bank was sentenced                for the borrowers. The defendant’s
to 97 months of incarceration, to be               scheme involved: collecting and
followed by 5 years of supervised                  diverting loan payments owed to
release and was ordered to pay                     creditors, and overselling the loan
$18.8 million in restitution. The                  participation agreements to other

                                    Office of Inspector General – Semiannual Report to the Congress 25
  financial institutions to obtain funds             activities surrounding the failure
  in excess of the borrowers’ approved               of Universal on June 27, 2002.
  loans. These loan payments and
                                                       As previously reported, the indictment
  excess funds were then diverted, for
                                                     alleged that the Universal customer
  the defendant’s personal benefit, into
                                                     conspired with Universal’s chief
  a manufacturing plant as capitalization
                                                     operations officer to misapply the
  loans. The defendant’s diverted funds
                                                     financial institution’s funds and to
  were lost when the plant closed and
                                                     make a false entry in a book, report,
  these “loans” went into default.
                                                     or statement of or to Universal. The
    Joint investigation by the FDIC OIG and          scheme and conspiracy caused a loss
  the FBI, based on a referral from DSC;
                                                     in excess of $10 million, and Universal
  prosecuted by the U.S. Attorney’s Office for the
  Northern District of Illinois, Eastern Division.   was forced to cease operations.
                                                       The chief operations officer was
  Universal Federal Savings Bank                     earlier sentenced to 38 months’
  Customer Sentenced and Ordered                     incarceration, to be followed by 3
  to Pay $9.7 Million in Restitution                 years’ supervised release, and 600
    On January 16, 2007, in the                      hours of community service. She was
  U.S. District Court for the Northern               also ordered to pay restitution in the
  District of Illinois, a former customer            amount of $1,313,082 to the FDIC.
  of Universal Federal Savings Bank                    Joint investigation by the FDIC OIG and
  (Universal) was sentenced to 42                    the FBI based on a referral from DSC;
  months of incarceration, to be                     prosecuted by the U.S. Attorney’s Office
                                                     for the Northern District of Illinois.
  followed by 5 years of supervised
  release and 300 hours of community
  service. The defendant was also                    Real Estate Frauds
  ordered to pay restitution in the
                                                       The increased reliance by both
  amount of $9,750,545 to the FDIC
                                                     financial institution and non-financial
  and $707,280 to the five Ponzi
                                                     institution lenders on third-party
  scheme victims. In July 2006 the
                                                     brokers has created opportunities for
  defendant pleaded guilty to one
                                                     fraud. According to the FBI, mortgage
  count of wire fraud affecting a
                                                     fraud is one of the fastest growing
  financial institution. The guilty plea
                                                     white-collar crimes. Such illegal
  is the result of an indictment filed
                                                     activity can cause financial ruin to
  in January 2005 concerning the

26 Office of Inspector General – Semiannual Report to the Congress
homeowners and local communities.              for the Northern District of Georgia
It can further impact local housing            to a one-count criminal information
markets and the economy at large.              charging him with defrauding nBank
Mortgage fraud can take a variety of           of between $7.5 and $11 million. On
forms and involve multiple individuals,        the same date, a mortgage broker
but most cases involve inflating the           and his company, Infinity Mortgage,
value of a property for more than              Atlanta, Georgia, also pleaded guilty
its worth, with scammers pocketing             to one count of bank fraud for their
the difference. Several investigations         role in defrauding nBank of $1.8
during the reporting period addressed          million in a mortgage fraud scheme.
fraudulent mortgage and real estate
                                                 The mortgage broker, acting on
schemes, as discussed below.
                                               behalf of Infinity Mortgage, submitted
                                               and received short-term funding for 23
Mortgage Fraud Investigation Leads to          loans totaling approximately $1.835
Charges Against Multiple Defendants
in the Northern District of Georgia
                                               million from nBank. These 23 loans
                                               were placed on Infinity Mortgage’s
  The OIG’s ongoing investigation              Warehouse line of credit at nBank.
of mortgage fraud and land flip                The loans were to stay on the nBank
schemes orchestrated by multiple               line for a short period of time while
subjects operating in Georgia,                 the mortgage broker found qualified
Florida, Texas, South Carolina,                investors to purchase the loans.
North Carolina, and Nevada has
resulted in a flurry of guilty pleas. We         The mortgage broker was unable to
initiated the investigation based on a         find qualified investors to purchase
referral from DSC’s Atlanta Regional           the 23 loans, and the loans became
Office. Several FDIC-regulated                 aged on nBank books. In order to
institutions have been victimized              remove the aged loans from the line
in the mortgage fraud schemes.                 of credit, the mortgage broker, with
                                               the knowledge and at the direction
 To illustrate, on December 14,                of the former senior vice president,
2006, the former senior vice president         submitted 23 new loan packages
of Mortgage Operations at nBank,               that contained false and fraudulent
an OCC-regulated institution in                information. The mortgage broker’s
Commerce, Georgia, was charged and             “rolling” of the loans allowed nBank
pleaded guilty in the U.S. District Court      to remove the aged loans from its

                                Office of Inspector General – Semiannual Report to the Congress 27
  books; however, the 23 new loans                  directly from the investors. However,
  eventually were found to be fraudulent            with the knowledge and consent of
  loans and nBank wrote them off.                   the former senior vice president of
  The senior vice president knew of                 Mortgage Operations at nBank, the
  and participated in this “rolling”                end investors, at the direction of the
  scheme with the mortgage broker                   mortgage broker, wire transmitted
  and several other mortgage lenders.               the loan proceeds to a bank account
                                                    in the name of the mortgage broker,
    On December 18, another mortgage
                                                    doing business as J.P. Enterprises.
  broker and Southern Lenders Mortgage
  Corporation (Southern Lenders), a                   Joint investigation by the FDIC OIG and
                                                    the FBI based on a referral from DSC;
  company the mortgage broker formerly
                                                    prosecuted by the U.S. Attorney’s Office
  co-owned in Newnan, Georgia,                      for the Northern District of Georgia.
  pleaded guilty to bank fraud in the
  Northern District of Georgia for their
                                                    Conviction in Mortgage Fraud
  role in a mortgage fraud scheme. The              Trial in Dallas, Texas
  guilty pleas are the result of an earlier
  indictment charging the mortgage                    On March 19, 2007, following a trial
  broker and Southern Lenders with one              that began February 21, a federal jury
  count of bank fraud for defrauding                in Dallas convicted a purported real
  nBank of approximately $3.7 million.              estate investor on all 14 counts in a
                                                    March 2006 indictment charging him
    The mortgage broker, acting on                  for his role in orchestrating a mortgage
  behalf of Southern Lenders, submitted             fraud scheme. Specific charges
  and received short-term funding for               included bank fraud, wire fraud, and
  34 loans totaling approximately                   engaging in monetary transactions
  $3.7 million from nBank. These                    derived from specified unlawful activity.
  34 loans were placed on Southern                  A second defendant in the case, a
  Lenders Warehouse line of credit at               loan broker, earlier pleaded guilty to
  nBank. The loans were subsequently                one count of wire fraud for his role in
  sold by Southern Lenders to several               the scheme. A third defendant, a loan
  investors on the secondary market. In             officer, was acquitted of the six counts
  the normal course of business, when               charged against her in the indictment.
  such loans are sold, the investors would
  wire the loan proceeds, and the bank                The indictment alleged that the
  should have received the proceeds                 three associates devised a scheme

28 Office of Inspector General – Semiannual Report to the Congress
to fraudulently obtain 21 mortgage                  Defendants Found Guilty in $2.16
loans totaling $3,220,550. The                      Million Real Estate Fraud
defendants used schemes commonly                      On December 12, 2006, following
referred to in the mortgage industry                a 2-week trial in the U.S. District
as property flips, markups and                      Court for the Northern District of
kickbacks, and HUD swaps to                         Texas, a jury found two defendants
facilitate the mortgage fraud. One of               guilty of all counts in an October
the mortgage companies impacted                     3, 2006, superseding indictment
by this fraud scheme was Fremont                    charging them with conspiracy, mail
Investment & Loan, an FDIC-supervised               fraud, wire fraud, bank fraud, and
institution in Brea, California.                    aiding and abetting for their roles in
  In each instance, one of the                      a mortgage fraud scheme. Two other
defendants convinced inexperienced                  defendants earlier pleaded guilty for
real estate investors to stand in as straw          their participation in the scheme.
borrowers and purchase the properties                 Three of the defendants operated
for fraudulently inflated sales prices. A           various companies in the Dallas
second defendant, a loan officer, and               area for the purported purpose of
the third, a mortgage broker, knowingly             remodeling and marketing investment
submitted false documentation to the                properties. The fourth defendant was
lenders to enable the straw borrowers               an escrow officer for two Dallas area
to qualify for the mortgage loans.                  title companies. From December
Each of the straw borrowers received a              2002 through March 2004, the
financial inducement for participating              four men engaged in a real estate
in the fraud scheme. Fraudulent real                scheme to defraud various real estate
estate appraisals were also submitted               lenders, buyers, and sellers, including
to the lenders to support the inflated              Fremont Investment & Loan. Three
sales prices of the properties.                     of the defendants located single-
  Joint investigation by the FDIC OIG and           family residences and recruited straw
the FBI; prosecuted by the U.S. Attorney’s          purchasers and borrowers to purchase
Office for the Northern District of Texas.          and finance the residences. Fraudulent
                                                    loan documents were then submitted
                                                    to the lenders in the name of the straw
                                                    borrowers falsely indicating the down
                                                    payment for the loans had been made

                                     Office of Inspector General – Semiannual Report to the Congress 29
  by the borrowers. The fourth defendant,           among themselves and others. Three
  as an employee of the title company,              of the defendants also executed
  would release the loan proceeds early             contracts between their company,
  to the three others, who would then               Better Homes of Dallas, and the straw
  purchase cashier’s checks in the name             borrowers, stating the company would
  of the straw borrowers for the requisite          be responsible for the loans, but they
  down payment. The defendants caused               later failed to fulfill their contract.
  inflated loan amounts to be funded                  Joint investigation by the FDIC OIG and
  by mortgage lenders and financial                 the FBI; prosecuted by the U.S. Attorney’s
  institutions, and conspired to distribute         Office for the Northern District of Texas.
  the fraudulently obtained loan proceeds



                                      A Strong Partnership
                                      The OIG has partnered with various U.S. Attorneys’ Offices throughout the country in
                                      bringing to justice individuals who have defrauded the FDIC or financial institutions
                                      within the jurisdiction of the FDIC, or criminally impeded the FDIC’s examination and
                                      resolution processes. The alliances with the U.S. Attorneys’ Offices have yielded positive
                                      results during this reporting period.

                                      Our strong partnership has evolved from years of trust and hard work in pursuing
                                      offenders through parallel criminal and civil remedies resulting in major successes, with
                                      harsh sanctions for the offenders. Our collective efforts have served as a deterrent to
                                      others contemplating criminal activity and helped maintain the public’s confidence in
                                      the nation’s financial system.

                                      For the current reporting period, we are especially appreciative of the efforts of
                                      the Assistant U.S. Attorneys in the following offices: Southern District of Florida,
                                      Western District of Tennessee, Northern District of Illinois, District of Colorado, District
                                      of Nebraska, Eastern District of Kentucky, Eastern District of Missouri, District of
                                      Minnesota, Middle District of Georgia, Northern District of Illinois–Eastern Division,
                                      Northern District of Iowa, Eastern District of Texas, District of Massachusetts, Southern
                                      District of Texas, Northern District of Iowa, and the Southern District of Illinois.




30 Office of Inspector General – Semiannual Report to the Congress
                                           Strategic Goal 2
                                           Insurance: Help
                                           the FDIC Maintain
                                           the Viability of the
                                           Insurance Fund




F Federal deposit insurance remains
a fundamental part of the FDIC’s
commitment to maintain stability
                                              new on-line tools. System changes
                                              in support of deposit insurance
                                              reform will continue in 2007.
and public confidence in the nation’s
                                                The continuing consolidation of the
financial system. In February 2006,
                                              banking industry means there are a
President Bush signed into law the
                                              few very large institutions that represent
Federal Deposit Insurance Reform
                                              an increasingly significant share of the
Act of 2005, prompting sweeping
                                              Deposit Insurance Fund’s risk exposure.
changes in the federal deposit
                                              Industry consolidation presents
insurance system. The Congress
                                              benefits and risks to the Deposit
gave the Corporation 9 months to
                                              Insurance Fund. While the risks to the
implement most of the provisions of
                                              funds are diminished because of the
the legislation. In October 2006, the
                                              diversification benefits of consolidation
FDIC Board of Directors approved
                                              (along geographic and product
a final rule to implement a one-time
                                              lines), the concentration of deposits
assessment credit to banks and thrifts.
                                              in fewer insured depository institutions
The credit will be used to offset future
                                              increases the risks to the Deposit
assessments charged by the FDIC
                                              Insurance Fund in the event a large
and will recognize contributions that
                                              insured depository institution fails.
certain institutions made to capitalize
the funds during the first half of the          As a result of industry consolidation,
1990s. In November 2006, the Board            the assets in the industry are also
also adopted a final rule on the              increasingly concentrated in a small
pricing structure and approved a more         number of large, complex institutions
risk-sensitive framework for the 95           for which the FDIC is not, for the
percent of insured institutions that are      most part, the primary supervisor.
well capitalized and well managed.            The largest banks operate highly
                                              complex branch networks, have
  In addition to the extensive
                                              extensive international and capital
rulemaking required in conjunction
                                              market operations, and work on
with deposit insurance reform,
                                              the cutting edge of technologically
fundamental changes were made
                                              sophisticated finance and business.
in the FDIC’s business functions,
                                              The increased complexity of the
including modification to major
                                              industry and the concentration of risk
application systems and creation of
                                              to the insurance funds in the largest

                               Office of Inspector General – Semiannual Report to the Congress 31
  banking organizations are expected to             cooperation with primary supervisors
  grow more pronounced over time and                and bank personnel to obtain real-
  to present greater risk-management                time access to information about the
  challenges to the Corporation. A two-             risk and trends in those institutions.
  tiered banking system characterized               We are currently conducting an audit
  by a limited number of very large,                to determine whether the Dedicated
  complex institutions and a much                   Examiner Program is contributing to the
  larger number of small community                  FDIC’s efforts to assess and quantify
  banks appears to be emerging.                     the risks posed by large institutions
  The banking regulators, including                 to the Deposit Insurance Fund.
  the FDIC, need insight into the risks
                                                      Another of our audits is assessing
  that are inherent in these different
                                                    the FDIC’s role in reviewing shared
  types of banking organizations.
                                                    national credits (SNC) and the
    To help the FDIC maintain                       consideration of SNC ratings in
  the viability of the deposit                      risk management examinations of
  insurance fund, the OIG’s 2007                    FDIC-supervised institutions. SNCs
  performance goal is as follows:                   represent the largest and most
                                                    complex loans and loan commitments
    • Evaluate corporate programs
                                                    held by FDIC-insured institutions.
      to identify and manage risks
      in the banking industry that
      can cause losses to the fund.
  OIG Work in Support of Goal 2                         OIG Work Cited in GAO Studies
    As insurer, the FDIC needs a                        The Federal Deposit Insurance Reform Conforming Amendments
  comprehensive understanding of the                    Act of 2005, which the President signed into law on February
  risks that the largest institutions pose to           15, 2006, contains necessary technical and conforming changes
  the Deposit Insurance Fund. The FDIC                  to implement deposit insurance reform, as well as a number of
  is not the primary federal regulator                  study and survey requirements. In fulfillment of some of those
  for most of the large institutions that it            requirements, the U.S. Government Accountability Office issued
  insures. Therefore, the risk assessment               three reports in February 2007. The FDIC OIG’s work is referenced
  process is based on a combination of                  in two of the three GAO studies. One of GAO’s reports is entitled,
  information obtained from the primary                 FDIC: Human Capital and Risk Assessment Programs Appear Sound,
                                                        but Evaluations of Their Effectiveness Should Be Improved. In this
  federal regulator, the institution,
                                                        report, GAO referenced findings in our earlier report on FDIC
  supervisory activities, market data,                  reserve ratio and assessment determinations and also cited prior
  and publicly available data. The FDIC                 OIG work related to possible insurance fund losses if a so-called
  established the Large Bank Branch                     “megabank” were to fail. In the second GAO report entitled, Deposit
  in headquarters to coordinate the                     Insurance: Assessment of Regulators’ Use of Prompt Corrective
  FDIC’s nationwide programs focused                    Action Provisions and FDIC’s New Deposit Insurance System, GAO
  on supervising and assessing risk in                  made several references to issues presented in two of our earlier
  large institutions. A key program in                  reports on the role of prompt corrective action as part of the
  this regard is the Dedicated Examiner                 enforcement process and the effectiveness of prompt corrective action
  Program, established in 2002. This                    provisions in preventing losses to the deposit insurance funds.
  program has placed dedicated
  examiners in the six largest insured
  depository institutions to work in

32 Office of Inspector General – Semiannual Report to the Congress
                                           Strategic Goal 3:
                                           Consumer Protection:
                                           Assist the FDIC to
                                           Protect Consumer
                                           Rights and Ensure
                                           Customer Data Security
                                           and Privacy


C Consumer protection laws are an
important part of the safety net of
America. The U.S. Congress has long
advocated particular protections
                                                • The Truth in Lending Act
                                                  requires meaningful disclosure
                                                  of credit and leasing terms.
                                                • The Fair and Accurate Credit
for consumers in relationships
                                                  Transactions Act further
with banks. For example:
                                                  strengthened the country’s national
 • The Community Reinvestment                     credit reporting system and assists
   Act encourages federally insured               financial institutions and consumers
   banks to meet the credit needs of              in the fight against identity theft.
   their entire community.
                                                 The FDIC carries out its role by
 • The Equal Credit Opportunity                (1) providing consumers with access
   Act prohibits creditor practices            to information about their rights and
   that discriminate based on race,            disclosures that are required by
   color, religion, national origin,           federal laws and regulations and
   sex, marital status, or age.                (2) examining the banks where the
 • The Home Mortgage Disclosure Act            FDIC is the primary federal regulator to
   was enacted to provide information          determine the institutions’ compliance
   to the public and federal regulators        with laws and regulations governing
   regarding how depository institutions       consumer protection, fair lending,
   are fulfilling their obligations towards    and community investment.
   community housing needs.                      FDIC Chairman Bair has stressed the
 • The Fair Housing Act prohibits              importance of economic inclusion and
   discrimination based on race, color,        has expressed concern that market
   religion, national origin, sex,             mechanisms are not working as well
   familial status, and handicap in            as they should for low-to-moderate
   residential real-estate-related             income families who must often pay
   transactions.                               high amounts for basic financial
                                               services that others obtain at far less
 • The Gramm-Leach-Bliley Act                  cost. Many people lack the financial
   eliminated barriers preventing the          skills needed to analyze and compare
   affiliations of banks with securities       products and their prices. Oftentimes
   firms and insurance companies               the problem is the lack of disclosures
   and mandates new privacy rules.             that describe a product and its true

                                Office of Inspector General – Semiannual Report to the Congress 33
  costs in fair and simple terms. Another           community investment. Additionally, the
  factor could be linked to aspects of              OIG’s investigative authorities are used
  safety and soundness regulation that              to identify, target, disrupt, and dismantle
  could unnecessarily deter banks from              criminal organizations and individual
  serving the needs of their communities            operations engaged in fraud schemes
  or create conditions that favor high-cost         that target our financial institutions.
  products. To address these concerns, in
                                                      To assist the FDIC to protect consumer
  addition to the FDIC’s existing Money
                                                    rights and ensure customer data
  Smart program, the Corporation has
                                                    security and privacy, the OIG’s 2007
  undertaken two initiatives—a military
                                                    performance goals are as follows:
  lending initiative and a newly created
  Advisory Committee on Economic                      • Evaluate the effectiveness
  Inclusion. As the Chairman has pointed                of FDIC programs for ensuring
  out, continuing dialogue among                        customer data security and
  consumer advocates, regulators,                       privacy at FDIC-insured institutions.
  and the banking industry is key to                  • Review the FDIC’s examination
  the challenge of closing the gap                      coverage of institution compliance
  between what the unbanked and                         at FDIC-insured institutions.
  underbanked pay for credit and what
  those in the mainstream pay. In recent              • Address allegations of fraudulent
  testimony before the Subcommittee on                  insurance coverage and identity
  Financial Institutions and Consumer                   theft schemes affecting the FDIC.
  Credit of the House Committee on                  OIG Work in Support of Goal 3
  Financial Services, the Chairman
                                                      Several audits completed during
  focused on strengthening protections
                                                    the reporting period addressed
  available to borrowers in the subprime
                                                    important consumer protection
  mortgage market and ensuring that
                                                    matters: security of sensitive customer
  predatory lending practices do not
                                                    information and community
  take root in the banking system.
                                                    reinvestment reporting. Investigative
    The OIG’s role under this strategic             work related to protection of personal
  goal is targeting audits and evaluations          information and misrepresentation
  that review the effectiveness of                  of deposit insurance complemented
  various FDIC programs aimed at                    audit efforts in this strategic goal
  protecting consumers, fair lending, and           area, as described below.

34 Office of Inspector General – Semiannual Report to the Congress
IT Examination Coverage of                    achieve greater assurance that
Financial Institutions’ Oversight             financial institutions are ensuring that
of Technology Service Providers               TSPs safeguard customer information.
                                              We recommended that the FDIC:
  In the first 10 months of 2006, over
                                              (1) revise IT-RMP guidance to ensure
half of the 213 information security
                                              that examiners adequately assess
breaches reported by financial
                                              financial institution compliance with the
institutions to the FDIC involved
                                              interagency guidelines pertaining
technology service providers (TSP).
                                              to the oversight of TSPs and
In accordance with federal laws and
                                              (2) reemphasize the need for examiners
regulations, financial institutions
                                              to clearly document decisions and
must safeguard sensitive customer
                                              supporting logic for the approach
information against unauthorized
                                              used in assessing compliance with
disclosure when outsourcing
                                              the interagency guidelines related to
various IT operations to TSPs.
                                              TSPs as well as support for examiner
  Interagency guidelines contained            conclusions. These measures will
in the FDIC Rules and Regulations             help in protecting customers from
establish key controls over TSPs, noting      identity theft and institutions from
that each bank shall (1) exercise due         fraud and reputational and other risks
diligence in selecting TSPs, (2) have         associated with unauthorized access
contractual arrangements with their           to or use of customer information.
TSPs that require appropriate measures
                                                FDIC management agreed with both
to safeguard customer information,
                                              recommendations, noting that it would
and (3) provide ongoing monitoring
                                              incorporate our recommendations
of TSPs to ensure they have satisfied
                                              into its planned evaluation of first
their contractual obligations.
                                              year performance under the IT-RMP.
  We conducted an audit to assess
                                              FDIC’s Implementation of
DSC’s (1) IT examination procedures
                                              the 2005 Amendments to the
for addressing the security of
                                              Community Reinvestment
sensitive customer information
                                              Act Regulations
when FDIC-supervised institutions
use TSPs and (2) examiners’                     The purpose of the Community
implementation of those procedures.           Reinvestment Act of 1977 (CRA) was
                                              to encourage depository institutions
 We determined that the FDIC can

                               Office of Inspector General – Semiannual Report to the Congress 35
  to help meet the credit needs of the                We found that the FDIC has issued
  communities in which they operate,                institution and examination guidance
  including low- and moderate-income                that addresses the 2005 amendments
  neighborhoods, consistent with                    to the CRA regulations. The institution
  safe and sound banking practices.                 guidance was supplemented with
  The CRA has come to play an                       interagency questions and answers
  important role in improving access                guidance in March 2006. Additionally,
  to credit among under-served                      our review of 10 ISB Performance
  rural and urban communities.                      Evaluation (PE) reports found that
                                                    examiners had generally followed
    The CRA requires that each insured
                                                    the new examination procedures,
  depository institution’s record in
                                                    using the lending and community
  helping meet the credit needs of its
                                                    development tests to assess ISBs.
  entire community be periodically
                                                    However, we noted one area where
  evaluated and publicly reported. In
                                                    examiner guidance could be improved
  2005, the federal banking agencies
                                                    regarding the implementation of the
  amended their CRA regulations
                                                    ISB community development test and
  which created a new class of small
                                                    the presentation of the results in the
  institutions (intermediate small
                                                    PE reports to support test conclusions.
  banks, or ISBs) with reduced CRA
  reporting requirements and more                     Also, it may be premature to establish
  flexibility in meeting CRA goals.                 outcome-oriented performance
                                                    measures for the amendments
    During the reporting period, we
                                                    made to the CRA regulations. Still,
  conducted an audit to determine
                                                    developing a strategy to determine
  whether the FDIC has (1) issued
                                                    whether the 2005 amendments to the
  institution and examination
                                                    CRA regulations have provided the
  guidance that addresses the 2005
                                                    intended regulatory relief for smaller
  amendments to the CRA regulations
                                                    community banks and preserved the
  and (2) established outcome-oriented
                                                    importance of community development
  performance measures to determine
                                                    will allow the FDIC to proactively
  if the amended regulations have
                                                    assess the impact of the amendments
  provided the intended regulatory
                                                    made to the CRA regulations.
  relief for smaller community banks
  and preserved the importance                       We therefore recommended that the
  of community development.                         Director, DSC, (1) enhance examiner

36 Office of Inspector General – Semiannual Report to the Congress
guidance to ensure examiners                 compliance management systems
provide complete support in the PE           during compliance examinations.
reports for their conclusions for the
                                             ECU Works to Curtail Identity
community development test, (2)
                                             Theft and Misrepresentation of
develop examiner guidelines that
                                             FDIC Insurance or Affiliation
incorporate the use of comparative
measures within the performance                Identity theft continues to become
analysis, and (3) develop a strategy         more sophisticated, and the number
for measuring CRA activities as a            of victims is growing. Identity theft
result of the amendments made to the         includes using the Internet for
regulations. DSC management agreed           crimes such as “phishing” emails
to implement the first recommendation        and “pharming” Web sites that
and will raise the remaining two with        attempt to trick people into divulging
the other federal banking agencies           their private financial information.
for interagency consideration.               Schemers pretend to be legitimate
                                             businesses or government entities
Ongoing Audit Work
                                             with a need for the information that
  The FDIC uses its compliance               is requested. The OIG's Electronic
examination process to ascertain             Crimes Unit (ECU) responds to
the effectiveness of an institution's        such phishing and pharming scams
program for complying with consumer          involving the FDIC and the OIG.
protection laws and regulations. DSC
                                               Unscrupulous individuals also
compliance examinations combine a
                                             sometimes attempt to misuse the
risk-based examination process with an
                                             FDIC’s name, logo, abbreviation,
in-depth evaluation of an institution’s
                                             or other indicators to suggest that
compliance management system,
                                             deposits or other products are fully
resulting in a top-down, risk-focused
                                             insured. Such misrepresentations
examination approach. A financial
                                             induce the targets of schemes to trust
institution must develop and maintain
                                             in the strength of FDIC insurance
a sound compliance management
                                             while misleading them as to the true
system that is integrated into the
                                             nature of the insurance investments
overall risk management strategy of
                                             being offered. Abuses of this nature
the institution. Audit work currently
                                             harm consumers and can also erode
underway will determine whether DSC
                                             public confidence in federal deposit
is adequately assessing institutions'

                              Office of Inspector General – Semiannual Report to the Congress 37
  insurance. Our ECU has a role to                  OIG Hosts Colombian Delegation
  play in combating such schemes.
                                                      The OIG’s work in combating cyber-
    During the reporting period, the                crime is often of interest to others
  ECU opened four new cases related                 in the law enforcement community.
  to phishing involving the FDIC. In                During the reporting period we hosted
  three of the new cases, the ECU was               a delegation of law enforcement
  able to have the fraudulent Web sites             officials from the Colombian National
  deactivated. The ECU continues to                 Police. The visit was sponsored by the
  investigate the fourth new phishing               U.S. State Department’s Bureau of
  case. The ECU was also able to have               Diplomatic Security, Office of Anti-
  three other fraudulent FDIC-related               Terrorism Assistance, Cyber-Terrorism
  phishing Web sites deactivated that               Training Program. As part of the
  were part of previously opened cases.             State Department’s program, the
                                                    Colombian group visited a number
    Additionally, the ECU investigated
                                                    of federal law enforcement entities
  two new instances of Web sites that
                                                    to gain an understanding of what
  falsely advertised FDIC insurance.
                                                    is required to establish and operate
  In both cases, the ECU was able to
                                                    a large-scale investigative function
  have the Web site deactivated or the
                                                    to fight cyber-crimes. Of particular
  reference to FDIC insurance removed.
                                                    interest to the Colombian group was
    Finally, the ECU continued to                   how the OIG’s electronic labs are set
  work an investigation involving a                 up, how the OIG manages evidence
  scam where banks are requested                    in storage, and how the lab deals
  to send confidential information by               with a large-scale chain of evidence.
  fax to an entity purported to be the              The delegation was grateful for the
  FDIC. The faxes go to a service that              opportunity to visit the FDIC and
  converts them to email and sends                  presented the OIG representatives
  the information to free, untraceable              with U.S. State Department certificates
  email addresses. During the reporting             of appreciation for having “made
  period, the ECU had two fax numbers               a significant contribution to the
  deactivated. The ECU has previously               government of Colombia’s fight
  had ten fax numbers associated                    against cyber-terrorism.”
  with this scam deactivated.



38 Office of Inspector General – Semiannual Report to the Congress
                          Strategic Goal 4:
                          Receivership Management:
                          Help Ensure that the FDIC is
                          Ready to Resolve Failed Banks
                          and Effectively Manages
                          Receiverships




T The United States provides protection
to depositors in its banks, savings
and loan associations, and credit
                                               customers, general creditors, and
                                               those with approved claims.
                                                 The FDIC’s resolution and
unions. One of the key players in this
                                               receivership activities pose tremendous
process is the FDIC. Among its various
                                               challenges. Today record profitability
functions, the FDIC acts as the receiver
                                               and capital in the banking industry
or liquidating agent for failed FDIC-
                                               have led to a substantial decrease
insured institutions. The success of the
                                               in the number of financial institution
FDIC’s efforts in resolving troubled
                                               failures compared to prior years.
institutions has a direct impact on the
                                               However, as indicated by the trends
banking industry and on the taxpayers.
                                               in mergers and acquisitions, banks
  The Division of Resolutions and              are becoming more complex, and the
Receiverships (DRR) exists to plan             industry is consolidating into larger
and efficiently handle the resolutions         organizations. As a result, the FDIC
of failing FDIC-insured institutions           could potentially have to handle a
and to provide prompt, responsive,             failing institution with a significantly
and efficient administration of failing        larger number of insured deposits than
and failed financial institutions in           it has had to deal with in the past.
order to maintain confidence and
                                                 The change between how the
stability in our financial system.
                                               FDIC handled resolutions and
  • The resolution process involves            receiverships 20 years ago and how
valuing a failing federally insured            it will be handling them 20 years
depository institution, marketing it,          from now will be largely based on
soliciting and accepting bids for the          learning to anticipate and plan,
sale of the institution, determining           instead of reacting. Through the
which bid to accept, and working               development of new resolution
with the acquiring institution                 strategies within the various DRR
through the closing process.                   business lines, the FDIC must set
                                               far-reaching plans for the future to
 • The receivership process involves
                                               keep pace with a changing industry.
performing the closing function
at the failed bank; liquidating any              The OIG’s role under this strategic
remaining assets; and distributing             goal is targeting audits and evaluations
any proceeds to the FDIC, the bank             that assess the effectiveness of the

                                Office of Inspector General – Semiannual Report to the Congress 39
  FDIC’s various programs designed                  OIG Work in Support of Goal 4
  to ensure that the FDIC is ready                    DRR has the primary responsibility
  to and does respond promptly,                     for resolving failed FDIC-insured
  efficiently, and effectively to financial         institutions promptly, efficiently, and
  institution closings. Additionally, the           responsively to maintain public
  OIG investigative authorities are                 confidence in the nation’s financial
  used to pursue instances where fraud              system. In performing their duties,
  is committed to avoid paying the                  DRR personnel have access to a
  FDIC civil settlements, court-ordered             wide variety of records containing
  restitution, and other payments as the            sensitive information concerning
  institution receiver. The OIG will also           bank employees and customers. Prior
  continue to work with FDIC officials              OIG work focused on DRR efforts to
  to keep abreast of the ongoing                    protect such information in hardcopy
  efforts being taken by DRR and the                form. Currently we are conducting
  Corporation as a whole, to sustain                an audit to evaluate the design and
  proficiency in resolution activity and to         implementation of selected controls
  prepare for the possibility of a large            established by DRR to safeguard
  institution failure or multiple failures          sensitive information collected and
  caused by a single catastrophic event.            maintained in electronic form as a
    To help ensure the FDIC is                      result of resolution and receivership
  ready to resolve failed banks and                 activity at FDIC-insured institutions.
  effectively manages receiverships,                  With respect to other ongoing work,
  the OIG’s 2007 performance                        one of the greatest risks to the Deposit
  goals are as follows:                             Insurance Fund and public confidence
    • Evaluate the FDIC’s plans and                 in the nation’s financial system would
      systems for managing bank                     be the failure of a large bank. The
      resolutions.                                  FDIC has put plans in place to deal
                                                    with the possibility of a large bank
    • Respond to potential crimes
                                                    failure, and in that regard it undertook
      affecting the FDIC’s efforts to
                                                    a Strategic Readiness Project in January
      recover financial losses.
                                                    2007. The purpose of the project is
                                                    to create a simulation that will stress
                                                    the decision-making associated
                                                    with a large bank failure, enhance

40 Office of Inspector General – Semiannual Report to the Congress
the FDIC’s ability to determine an            Former CEO of Sunbelt Savings
effective resolution strategy, advance        Sentenced to 8 Years in Prison
knowledge of the process, and identify
                                                On October 20, 2006, in the U.S.
lessons learned. A steering committee
                                              District Court for the Northern District
of FDIC executives is leading the
                                              of Texas, the former Chief Executive
project and Corporate University is
                                              Officer (CEO) of the now defunct
directing it. A contractor has been
                                              Sunbelt Savings and Loan of Dallas,
hired to design the simulation. During
                                              Texas, was sentenced to 97 months'
the reporting period, the OIG has
                                              incarceration and ordered to pay a
been monitoring the project. We
                                              criminal forfeiture of $2,054,366 to
need to be ready for any large failure
                                              the U.S. Government and restitution in
when fraud is a contributing factor.
                                              the amount of $312,828 to the FDIC.
We also need to be prepared to
review the circumstances that cause             After a week-long trial in January
a large bank failure and make                 2006, the former CEO was convicted
recommendations, if appropriate, to           on all 27 counts of a superseding
strengthen the regulatory process.            indictment that charged him with 6
                                              counts of mail fraud, 11 counts of
  From an investigative standpoint,
                                              making false statements, 9 counts of
the sentencing in one of our cases
                                              concealing assets from the FDIC, and
during the reporting period illustrates
                                              one count of money laundering. At
the nature of the work we do in
                                              a separate hearing, the court found
concealment of assets investigations
                                              that the former CEO was subject to
to protect the FDIC’s interests as
                                              $2,054,366 in cash forfeitures.
receiver of a failed institution, as
discussed below. We do such work                The former CEO pleaded guilty
in furtherance of our performance             in 1990 to federal fraud charges
goal related to the FDIC's efforts            in connection with the collapse of
to recover financial losses.                  Sunbelt, which lost approximately
                                              $2 billion during the 1980s. In the
                                              criminal case against him, he was
                                              ordered to pay back $7.5 million
                                              to the FDIC and $8.5 million in a
                                              civil judgment. His plea agreement
                                              required him to relinquish a

                               Office of Inspector General – Semiannual Report to the Congress 41
  portion of his income to repay the
  obligation, with the percentage
  increasing as income increased.
    Going back to July 1993, the
  former CEO engaged in a scheme to
  defraud the FDIC of its payments by
  creating a trust, known as the Oslin
  Nation Trust. The former CEO used
  the trust to conceal earnings from his
  business, and pay his personal and
  legal expenses, and accounting fees.
  The former CEO made false monthly
  reports to the U.S. Probation Office
  to conceal hundreds of thousands
  of dollars from the FDIC in order
  to avoid the payments required
  by the FDIC restitution order.
   We investigated this case with assistance
  from the FDIC Legal Division. The
  U.S. Attorney’s Office for the Northern
  District of Texas prosecuted the case.




42 Office of Inspector General – Semiannual Report to the Congress
                                    Strategic Goal 5:
                                    FDIC Resources
                                    Management: Promote
                                    Sound Governance and
                                    Effective Stewardship
                                    and Security of Human,
                                    Financial, IT, and
                                    Physical Resources

T The FDIC manages and utilizes a
number of critical strategic resources
to carry out its mission successfully,
particularly its human, financial, IT, and
                                               business processes; and redirect
                                               resources from transaction processing
                                               to analysis, risk management,
                                               and decision support.
physical resources. The Corporation
                                                 Financial resources are but one
does not receive an annual
                                               aspect of the FDIC’s critical assets.
appropriation, except for its OIG, but
                                               The Corporation’s human capital is
rather is funded by the premiums that
                                               also vital to its success. Because of
banks and thrift institutions pay for
                                               the projected retirements of a large
deposit insurance coverage, the sale
                                               number of long-serving employees,
of assets recovered from failed banks
                                               the FDIC has made efforts to reshape
and thrifts, and from earnings on
                                               its workforce with the implementation
investments in U.S. Treasury securities.
                                               of the Corporate Employee Program,
  The Board approved a $1.1 billion            the Succession Management Program,
corporate operating budget for                 and the Leadership Development
2007, approximately 4.6 percent                Program. Throughout the reshaping
higher than for 2006. The approved             of its workforce, the FDIC maintains
budget provides funding for additional         its commitment to a working
compliance examiners, increased                environment of high integrity and
employee training, enhanced IT security        to the achievement of its mission.
and privacy programs, and completion
                                                 Technological advances have
of systems changes required to support
                                               produced tools that all workers
the implementation of deposit insurance
                                               today would be lost without. IT
reform. The Corporation’s 2007
                                               drives and supports the manner in
spending on multi-year investment
                                               which the public and private sector
projects separately approved by the
                                               conduct their work. At the FDIC, the
Board is expected to be approximately
                                               Corporation seeks to leverage IT to
$19 million to $23 million.
                                               support its business goals in insurance,
 The Corporation is continuing to              supervision and consumer protection,
operate in the context of its New              and receivership management, and
Financial Environment, intended to             to improve the operational efficiency
meet current and future financial              of its business processes. The
management and financial information           financial services industry employs
needs; improve corporate financial             technology for similar purposes.

                                Office of Inspector General – Semiannual Report to the Congress 43
    Along with the positive benefits that IT        operational during any emergencies,
  offers comes a certain degree of risk.            including threats to public health
  In that regard, information security              such as a pandemic influenza.
  has been a long-standing and widely
                                                      The Federal Deposit Insurance Act
  acknowledged concern among federal
                                                    empowers the FDIC to enter into
  agencies. The E-Government Act of
                                                    contracts to procure goods and
  2002 recognized the importance of
                                                    services. Over the past several years,
  information security. Title III of the E-
                                                    the Corporation has increased its
  Government Act, entitled the Federal
                                                    reliance on outsourcing for services
  Information Security Management
                                                    such as IT infrastructure support, IT
  Act, requires each agency to develop,
                                                    application system development, and
  document, and implement an agency-
                                                    facilities maintenance. As of March
  wide information security program
                                                    2006, the value of the FDIC’s active
  to provide adequate security for the
                                                    contracts totaled over $1.6 billion.
  information and information systems
                                                    Also, a number of new contracting
  that support the operations and assets
                                                    vehicles have been implemented. For
  of the agency. Section 522 of the
                                                    example, the Corporation combined
  Consolidated Appropriations Act of
                                                    approximately 40 IT-related contracts
  2005 requires agencies to establish
                                                    into one contract with multiple
  and implement comprehensive privacy
                                                    vendors for a total program value of
  and data protection procedures
                                                    approximately $555 million over 10
  and have an independent third-
                                                    years. Also for the first time the FDIC
  party review performed of their
                                                    used a large technical infrastructure
  privacy programs and practices.
                                                    contract through the General
    Business continuity and disaster                Services Administration valued at
  recovery are foremost concerns                    over $340 million over 5 years.
  to all federal agencies. The FDIC
                                                     As an integral part of its stewardship
  must be sure that its emergency
                                                    of the insurance funds, the FDIC
  response plans provide for the
                                                    has established a risk management
  safety and physical security of its
                                                    and internal control program.
  human resources and ensure that
                                                    The Office of Enterprise Risk
  its business continuity planning
                                                    Management (OERM) is the corporate
  and disaster recovery capabilities
                                                    oversight manager for internal
  keep critical business functions
                                                    controls and risk management.

44 Office of Inspector General – Semiannual Report to the Congress
OERM works in partnership with                     OIG Work in Support of Goal 5
all FDIC divisions and offices,                    The FDIC’s Succession
helping them to identify, evaluate,                Planning Efforts
monitor, and manage their risks.
                                                     Our Evaluations group conducted
  To promote sound governance                      a review of the FDIC’s succession
and effective stewardship of FDIC                  planning efforts to identify and address
strategic resources, the OIG’s 2007                future critical staffing and leadership
performance goals are as follows:                  needs. We evaluated whether the
 • Evaluate corporate efforts                      FDIC’s succession planning initiatives
   to fund operations efficiently,                 were consistent with the seven key
   effectively, and economically.                  principles for effective succession
                                                   planning management identified
 • Assess corporate human
                                                   by GAO, the Office of Personnel
   capital strategic initiatives.
                                                   Management, the Corporate
 • Promote integrity in FDIC                       Leadership Council, and the National
   internal operations.                            Academy of Public Administration.
 • Promote alignment of IT with the                 We found that the FDIC has
   FDIC’s business goals and                       recently put initiatives in place
   objectives.                                     and is developing others that are
                                                   consistent with seven key principles:
 • Promote IT security measures that
   ensure the confidentiality, integrity,           • Commitment and active support
   and availability of corporate                      of top leadership.
   information.
                                                    • A direct link between the
 • Promote personnel and physical                     organization’s mission and its
   security.                                          strategic plan and outcomes.
 • Evaluate corporate contracting                   • Identification of the critical
   efforts.                                           skills and competencies that
                                                      will be needed to achieve current
 • Monitor corporate risk
                                                      and future programmatic goals.
   management and
   internal control efforts.                        • Development of strategies to
                                                      address gaps in mission
                                                      critical and other key positions.

                                    Office of Inspector General – Semiannual Report to the Congress 45
    • Leadership training programs                  and regional offices. The BCPs include
      that include formal and informal              procedures for relocating essential
      training for all levels of supervisors,       personnel; resuming and restoring
      managers, and potential leaders.              FDIC critical business processes;
                                                    and recovering and reconstituting
    • Strategies for addressing
                                                    supporting IT systems. Identifying
      specific human capital
                                                    essential contracts and ensuring
      challenges, such as diversity,
                                                    that contracts provide for services
      leadership capacity, and retention.
                                                    in the event of a BCP scenario
    • A process for evaluating the costs            are critical to FDIC operations.
      and benefits of succession planning
                                                      We conducted an audit to determine
      efforts and the return on investment
                                                    whether the FDIC has planned for
      it provides for the organization.
                                                    essential contract services to be
    We limited the results of this review           provided in the event of an emergency
  to describing and providing the                   that requires implementation of the
  status of the FDIC’s current and                  FDIC’s BCP. We reported that the
  planned initiatives. We did not                   FDIC has done so and is continuing
  make recommendations but noted                    to improve contract management
  in the report that the initiatives                for business continuity. It has
  should be assessed at a later date                identified most essential contracts
  to determine their effectiveness in               for business continuity purposes and
  achieving the desired outcomes.                   modified many of those contracts
  FDIC’s Contract Planning                          to include emergency preparedness
  and Management for                                clauses. It also has a process in
  Business Continuity                               place to update its list of essential
                                                    contracts in the BCP annually.
   The Federal Emergency Management
  Agency has issued guidance for                     We noted that the FDIC could further
  agencies to use in developing                     improve its contract planning and
  continuity of operations plans. The               management for business continuity by:
  FDIC’s Emergency Preparedness                       • enhancing BCP procedures and the
  Program establishes the FDIC’s                        Business Impact Analysis questionnaire
  business continuity policy and requires               to require documentation of all essential
  Business Continuity Plans (BCP) to be                 contracts, including detailed information
  established in the FDIC’s headquarters                about each contract;
46 Office of Inspector General – Semiannual Report to the Congress
 • requiring program offices to include       review performed of their privacy
   emergency preparedness clauses             programs and practices. The objective
   in the Statement of Work for               of the section 522 audit was to (1)
   essential contracts and subcontracts       evaluate the FDIC’s use of information
   to ensure that business                    in an identifiable form (IIF) and the
   continuity is considered in the            FDIC’s privacy and data protection
   procurement process; and                   procedures and (2) recommend
 • amending acquisition policy                strategies and specific steps to
   and procedures and BCP policy              improve the FDIC’s privacy and data
   to require that essential contractors      protection management practices.
   (a) have emergency plans for                 In fulfilling its legislative mandate
   providing services to the FDIC in          of insuring deposits, supervising
   the event of a disruption of normal        financial institutions, and managing
   operations and (b) participate in          receiverships, the FDIC creates
   the FDIC’s business continuity             and acquires a significant amount
   testing, training, and                     of IIF. Such IIF includes names,
   exercise activities.                       addresses, Social Security numbers,
 We made three recommendations.               phone numbers, dates of birth, and
Management concurred and                      credit report information. Much
quickly completed corrective                  of the information managed by
actions to address our concerns.              the FDIC falls within the scope of
                                              several statutes and regulations
FDIC’s Compliance with Section                intended to protect such information
522 of the Consolidated                       from unauthorized disclosure.
Appropriations Act, 2005
                                                We reported that the FDIC has
 We contracted with KPMG                      established a corporate-wide privacy
LLP (KPMG) to audit the FDIC’s                program to protect the IIF it manages
compliance with section 522 of the            from unauthorized disclosure and
Consolidated Appropriations Act,              ensure its appropriate use consistent
2005. Section 522 requires, among             with section 522. Of particular
other things, that agencies establish         note, the FDIC has appointed a
and implement comprehensive privacy           Chief Privacy Officer with overall
and data protection procedures and            responsibility for the FDIC’s privacy
have an independent third-party               program, issued or drafted policies

                               Office of Inspector General – Semiannual Report to the Congress 47
  and procedures for safeguarding IIF,                  employee and contractor awareness
  and posted a privacy statement on the                 to physically safeguard IIF in their
  FDIC’s public Web site. Additionally,                 custody;
  the FDIC has performed privacy
                                                      • ensure that privacy impact
  impact assessments on its systems
                                                       assessments posted on the
  identified as containing IIF, completed
                                                       FDIC’s public Web site
  required Privacy Act-related reviews,
                                                       adequately describe the FDIC’s
  and implemented mandatory Web-
                                                       collection and use of IIF; and
  based privacy awareness training
  for its employees and contractors.                  • enhance the FDIC’s systems
  Further, the FDIC was working to                     development life cycle processes
  complete a number of key initiatives to              to fully address privacy.
  strengthen its privacy program policies,           The FDIC agreed with the
  procedures, and practices and ensure              recommendations and is taking
  compliance with federal privacy-related           responsive actions.
  statutes, policies, and guidelines.
                                                    Interagency Agreement
    Consistent with the intent of section           with the General Services
  522, our report identifies areas of the           Administration for the
  FDIC’s privacy program warranting                 Infrastructure Services Contract
  continued management attention and
  recommends strategies and specific                  In March 2004, the FDIC entered
  steps that management should take to              into an interagency agreement with
  ensure adequate protection of its IIF.            the General Services Administration
                                                    (GSA) for IT support services. Under
    Our report recommended that                     GSA’s Federal Systems Integration
  the Chief Privacy Officer:                        Management Center (FEDSIM)
    • enhance the FDIC’s privacy                    Millennia contract, GSA issued the
     program by integrating key ongoing             Infrastructure Services Contract (ISC)
     and planned program control                    to SRA International, Inc. (SRA) for IT
     activities into a formal documented            support services for the Corporation.
     plan;                                          According to the Board Case approved
                                                    by the FDIC’s Board of Directors,
    • implement additional measures to
                                                    the contract consolidated 37 FDIC
     ensure that IIF is properly secured;
                                                    infrastructure support contracts. The
    • place additional emphasis on                  ISC’s approved total value, including
48 Office of Inspector General – Semiannual Report to the Congress
four 1-year contract option periods,          assess the reasonableness of the
is $357 million. The FDIC’s Division          ISC staffing and management plans.
of Information Technology (DIT) has           Management’s planned actions are
assumed responsibility for contract           responsive to our recommendations.
management and oversight.
                                              Management Report:
  We conducted an audit to determine          Independent Evaluation
whether (1) controls are adequate to          of the FDIC’s Information
ensure that work performed under              Security Program-2006
the ISC complies with the contract’s
                                               We issued a report to management
terms and conditions and (2) this
                                              with more detailed information
contracting method has produced the
                                              regarding certain security control
intended results. We determined that
                                              concerns identified in our September
the combination of controls established
                                              2006 report entitled, Independent
by the FDIC and those assigned to
                                              Evaluation of the FDIC’s Information
FEDSIM through the interagency
                                              Security Program-2006. We made
agreement were adequate to ensure
                                              recommendations for control
that work under the ISC complied with
                                              improvements, where appropriate. The
the contract terms and conditions.
                                              report contains sensitive information
Also, the ISC has substantially achieved
                                              regarding information security
the Corporation’s desired results,
                                              and is not publicly available.
as presented in the Board Case.
                                              OIG Policy Reviews
  The report makes three
recommendations intended to                     During the reporting period,
strengthen DIT’s monitoring and               we reviewed 21 draft corporate
oversight. DIT management concurred           policies and raised policy issues for
with the recommendations and will             consideration in the following draft
document the activities to provide            documents: Protecting Sensitive
a more structured methodology for             Information, Planning and Budget
evaluating the ISC’s performance;             Processes, Emergency Preparedness
establish a process for presenting and        Program, Student Educational
obtaining senior management approval          Employment Program, and Express
for contract line item allocations; and       Mail Service. Our comments are
develop a process for conducting              incorporated in final policy, as
periodic program-wide reviews to              determined by FDIC management.

                               Office of Inspector General – Semiannual Report to the Congress 49
  Ongoing Audit and
  Evaluation Work
    Ongoing work in this strategic
  goal area includes a review of the
  Corporation’s process for issuing task
  orders under the $554.8 million IT
  application services basic ordering
  agreements. We are determining
  whether there is a proper balance
  between the timely issuance of task
  orders and the maintenance of proper
  controls. We are also completing
  our evaluation of the FDIC’s Use of
  Performance Measures. This review
  is examining how the FDIC meets
  requirements of the Government
  Performance and Results Act and also
  addresses other performance metrics
  used by the Corporation. Finally, we
  are assessing the extent to which the
  FDIC has implemented an enterprise
  risk management program consistent
  with applicable government-wide
  guidance and implementation of the
  Office of Enterprise Risk Management’s
  September 2006 circular outlining the
  FDIC’s risk management program.




50 Office of Inspector General – Semiannual Report to the Congress
                                           Strategic Goal 6:
                                           OIG Internal
                                           Processes: Build
                                           and Sustain a High-
                                           Quality OIG Work
                                           Environment




W While the OIG is focused on the FDIC’s programs and operations, we have an
inherent obligation to hold ourselves to the highest standards of performance
and conduct. Like any organization, we have processes and procedures for
conducting our work; communicating with our clients, staff, and stakeholders;
managing our financial resources; aligning our human capital to our mission;
strategically planning and measuring the outcomes of our work; maximizing the
cost-effective use of technology; and ensuring our work products are timely, value-
added, accurate, and complete and meet applicable professional standards.
 To build and sustain a high-quality OIG work environment, the OIG’s 2007
performance goals are as follows:
 • Encourage individual growth                 • Ensure quality and efficiency
   through personal development;                 of OIG audits, evaluations,
                                                 investigations, and other operations;
 • Strengthen human capital
   management and leadership                   • Enhance strategic and annual
   development;                                  performance planning and
                                                 performance measurement; and
 • Foster good client, stakeholder,
   and staff relationships;                    • Invest in cost-effective and secure IT.

Encourage Individual Growth
Through Personal Development                   training and development programs
                                               in the interest of creating long-
  ❖ Completed pilot training and               term training and development
development plans for 2007 for                 plans for OA, OE, and OI.
auditors, evaluators, and investigators.
The plans reflect a minimum                      ❖ As part of the communication of
requirement of 44 hours of training            the training and development plans,
to be taken by auditors and program            staff are encouraged to attain relevant
analysts in the Office of Audits (OA)          professional certifications. We held
and the Office of Evaluations (OE) and         a meeting in March 2006 to discuss
a minimum requirement of 64 hours              the pilot training and development
of training for criminal investigators         plans and career development plans
in the Office of Investigations (OI).          with OIG executives and managers
Information has been gathered from             to underscore our commitment
other OIGs and GAO on existing                 to employee development.

                               Office of Inspector General – Semiannual Report to the Congress 51
    ❖ Surveyed the six OIG pilot                      ❖ Developed an end-of-assignment
  mentoring program participants                    feedback form for OA and OE that
  regarding their 2006 experience                   was endorsed by senior OA/OE
  and compiled the feedback. We                     management and the Inspector
  passed along recommendations to                   General. We communicated the
  the Inspector General for the future              intent of the feedback mechanism,
  of the OIG mentoring program. In                  use of the form, retention schedule,
  January 2007 we announced the                     and review process. Explained the
  OIG’s 2007 mentoring program. The                 tool at the March executive and
  OIG now has 7 mentoring pairs. All                manager meeting. Periodic meetings
  14 mentors and mentorees attended                 with staff will be held to assess the
  the Corporation’s Orientation                     success of the process and address
  Program in March 2007 and                         any necessary modifications.
  continue to explore ways to enhance
                                                      ❖ Took a number of steps to update
  the OIG’s mentoring program.
                                                    the OIG’s business continuity and
  Strengthen Human                                  emergency preparedness plans,
  Capital Management and                            including updating emergency contact
  Leadership Development                            information, designating shelter-in-
                                                    place rooms in OIG office space
    ❖ The 2007 pilot training and
                                                    in coordination with the Division of
  development plans for OIG staff
                                                    Administration, and coordinating
  include 8 hours of leadership training
                                                    with DIT on the installation of
  for each person. Information is being
                                                    telephones in shelter-in-place rooms.
  gathered from Corporate University
  (CU), other OIGs, and GAO on                        ❖ Worked with the OIG Information
  existing training and development                 Security Manager to ensure that all
  programs, including leadership                    OIG employees have a “Safeword”
  development programs. We plan to                  token. The tokens will allow employees
  discuss establishing an OIG Leadership            to remotely access the FDIC network
  Development Program, using the CU                 in an emergency situation.
  Leadership Development Program
                                                     ❖ Assessed Emergency Response
  as a framework for incorporating
                                                    Plans and Business Continuity
  unique OIG requirements.
                                                    Plans in place at OIG regions
                                                    and suggested enhancements.


52 Office of Inspector General – Semiannual Report to the Congress
Foster Good Client, Stakeholder,                ❖ Held quarterly meetings with FDIC
and Staff Relationships                        Directors and other senior officials to
  ❖ Maintained Congressional                   keep them apprised of ongoing audit
working relationships by providing             and evaluation reviews and results.
Semiannual Report to the Congress                ❖ Kept DSC, DRR, Legal, and other
for the 6-month period ending                  FDIC program offices informed of the
September 30, 2006, communicating              status and results of our investigative
with interested congressional                  work impacting their respective offices.
parties regarding the OIG’s work               This is accomplished by issuing
on Office of Foreign Assets Control            e-mails to FDIC program offices on
and challenges regarding predatory             recent actions in OIG cases and
lending, and attending FDIC-related            OI’s quarterly reports to DSC, DRR,
hearings on issues of concern to               Legal, and the Chairman’s Office
various oversight committees.                  outlining activity and results in our
  ❖ Developed OIG congressional                cases involving closed and open
protocols and shared draft                     banks, and asset and debt cases.
protocols with the FDIC’s Director              ❖ Participated at Audit Committee
of the Office of Legislative Affairs,          meetings and presented results
then shared the draft protocols                of significant assignments for
with the FDIC Chairman.                        consideration by Committee members.
  ❖ Communicated with the                        ❖ Identified the following
Chairman and Vice Chairman                     management and performance
through the Inspector General’s                challenges facing the Corporation
regularly scheduled meetings with              and provided a detailed write-up
them and through other forums.                 of the challenges for inclusion in
 ❖ Submitted our fiscal year 2008              the Corporation’s Performance and
budget request totaling $26.8                  Accountability Report: addressing
million to the Office of Management            risks in large banks; maintaining
and Budget in November 2006                    strong regulatory capital standards;
and to cognizant congressional                 implementing deposit insurance
committees in February 2007. We                reform; maintaining an effective
shared these and related documents             examination and supervision program;
with senior corporate officials.               granting insurance to and supervising

                                Office of Inspector General – Semiannual Report to the Congress 53
  industrial loan companies; guarding                 ❖ Elected new members of the OIG’s
  against financial crimes in insured               Employee Advisory Group in January
  institutions; safeguarding the privacy            2007. The new Employee Advisory
  of consumer information; promoting                Group is comprised of three employees
  fairness and inclusion in the delivery of         from OI, two employees from OA,
  information, products, and services to            and one employee each from OE
  consumers and communities; ensuring               and the Office of Management.
  compliance with consumer protection
                                                      ❖ Continued to post and/or
  laws and regulations and follow-up on
                                                    update information on the FDIC
  violations; being ready for potential
                                                    OIG internet (www.fdicig.gov) and
  institution failures; and promoting
                                                    intranet sites to ensure transparency
  sound governance and managing
                                                    and accessibility to OIG products,
  and protecting human, financial,
                                                    including Semiannual Reports to the
  information technology, physical, and
                                                    Congress, OIG 2007 Business Plan,
  procurement resources. We continue
                                                    audit and evaluation reports, and
  to work cooperatively with stakeholders
                                                    investigation-related press releases.
  to address these challenges.
                                                    Ensure Quality and
    ❖ Participated with other OIGs
                                                    Efficiency of OIG Audits,
  in the President’s Council on
                                                    Evaluations, Investigations,
  Integrity and Efficiency (PCIE),
                                                    and Other Operations
  including attending monthly
  PCIE meetings and participating                     ❖ Commencing work to revise
  in PCIE Audit and Inspection &                    OA’s Policy and Procedures
  Evaluation Committee meetings.                    Manual to address changes in
                                                    the performance audit standards
    ❖ Met with representatives of the
                                                    and any process changes deemed
  OIGs of the federal banking regulators
                                                    necessary as a result of an internal
  (Federal Reserve Board, Department
                                                    assignment management review and
  of the Treasury, National Credit
                                                    the external peer review results.
  Union Administration, Securities and
  Exchange Commission, Farm Credit                    ❖ Began review of the Government
  Administration, Commodity Futures                 Accountability Office (GAO)
  Trading Commission, Federal Housing               2007 revision of Government
  Finance Board) to discuss audit and               Auditing Standards and planned
  investigative matters of mutual interest.         for training staff on the revisions.

54 Office of Inspector General – Semiannual Report to the Congress
The new standards will be effective            Enhance Strategic and
for engagements beginning on                   Annual Planning and
or after January 1, 2008.                      Performance Measurement
 ❖ Held an entrance conference                  ❖ Met to kick off the fiscal year
with the Department of State OIG               2008/2009 business planning process.
on February 21, 2007. That office              The discussion included a look back
will conduct a peer review of our              at the fiscal year 2007 planning
audit operations. Field work is                process to determine what worked
expected to begin in April.                    well and what could be improved.
  ❖ In accordance with PCIE quality             ❖ Continued to assess and monitor
standards, we completed a peer                 changes in risk conditions that affect
review of the Department of Justice            OIG business practices, including
OIG Office of Audit and issued a               coordinating Inspector General
final report in February 2007.                 assurance to the Chairman on the
  ❖ Completed an internal quality              adequacy of internal controls for
control review of OA assignments.              calendar year 2006 and updating
OI completed internal reviews of the           OIG Management Control Plans and
Electronic Crimes Unit, OIG’s Hotline          Accountability Units for CY 2007.
Operations, Special Inquiries and              Invest in Cost-Effective
Oversight, and the Eastern Region. OI          and Secure IT
internal reviews of Western Regional
                                                 ❖ Determined that updating the
Offices (Dallas and Chicago) are
                                               IT Strategic Plan to guide OIG
expected to be completed by the end
                                               business decisions, priorities, and
of the fourth quarter of the fiscal year.
                                               resource allocations for 2008-
  ❖ Developed a project management             2010 would be an office-wide
tracking and reporting process for             initiative. Members of the OIG IT
internal OIG projects. The milestone           Strategic Plan Working Group were
documents for projects are updated             selected, and a meeting is planned
each week and are used to track                in May to generate ideas, goals, and
the status and progress of the OIG’s           expectations for the IT Strategic Plan.
internal improvement projects.
                                                 ❖ Coordinated extensively with DIT
                                               to install new dedicated servers for
                                               OIG operations. OIG staff are in
                                Office of Inspector General – Semiannual Report to the Congress 55
  the process of migrating the OIG’s                tools will be evaluated and analyzed
  systems to the OIG’s new servers.                 according to OIG management’s
  STAR, Counsel Workflow, Bank Case,                information requirements to determine
  Hotline, OIGNet, and the Training                 an optimal approach to meeting
  System were moved during March.                   those requirements in a cost-effective
  The remaining OIG systems and files               and timely manner. A particular
  including, IDS and Dashboard are                  focus is on minimizing data entry,
  scheduled to be moved in April.                   providing graphical representations of
                                                    information, improving performance,
   ❖ DIT formally began its Laptop
                                                    and providing information across
  Replacement Project in December
                                                    OIG systems and applications.
  2006. The OIG will be represented
  on both the steering committee                      ❖ Implemented the Training System
  and working group of participating                upgrade in December 2006. The
  FDIC divisions and offices.                       upgrade improved and streamlined the
                                                    process of requesting and approving
   ❖ Continued to coordinate
                                                    training for OIG professional,
  with DIT to ensure the security
                                                    supervisory, and administrative staff
  of OIG information in the FDIC
                                                    using the system. The upgrade also
  computer network infrastructure.
                                                    provides features and improvements
   ❖ Attended a March 6, 2007                       that make the process of obtaining
  FDIC-sponsored Gartner Group                      vendor discounts and monitoring
  presentation on planning and                      continuing professional education
  implementing Microsoft’s new                      requirements more efficient.
  Vista and Office 2007 software.
                                                      ❖ Updated the OIG Strategic
   ❖ Attended a March 2007                          Information Dashboard to incorporate
  meeting focused on the FDIC’s                     the OIG fiscal year 2007 Business
  enterprise architecture vision.                   Plan strategic goals, performance
    ❖ Took steps to identify and                    goals, and key efforts. We also
  evaluate the options and requirements             updated the quantitative measures
  needed to streamline, enhance, and                and targets section that reports out
  improve the collection and reporting              on fiscal year 2007 performance
  of information needed to manage                   targets as highlighted in the plan.
  OIG audits and evaluations. Current
  information systems and automated
56 Office of Inspector General – Semiannual Report to the Congress
                       Cumulative Results (2-year period)

                         Nonmonetary Recommendations
                         April 2005 - September 2005 39
                         October 2005 - March 2006   34
                         April 2006 - September 2006 48
                         October 2006 - March 2007   35


                       Products Issued and Investigations Closed
                                                                                     40
L E G E N D
                                                                   37                35
•   Apr 05 - Sept 05                                                         30
                                                                                     30
•   Oct 05 - Mar 06                                                                  25
•   Apr 06 - Sept 06      23
                                                                        21           20
•   Oct 06 - Mar 07                                           18
                                                                                     15
                                        15
                                 11            11                                    10
                                                                                     5
                                                                                     0

                             Audits &                         Investigations
                            Evaluations



                       Questioned Costs/Funds Put to Better Use
                       (in millions)
L E G E N D                                                                          5
                                        4.9


•   Apr 05 - Sept 05                                                                 4
•   Oct 05 - Mar 06
•   Apr 06 - Sept 06                                                                 3
•   Oct 06 - Mar 07
                                                                                     2
                          0.98
                                                                                     1
                                                      0   0
                                                                                     0


                       Fines, Restitution, and Monetary Recoveries
                       Resulting from OIG Investigations
                       (in millions)

                                               75.6
                                                                                     80
L E G E N D
                                                                                     60
•   Apr 05 - Sept 05
•   Oct 05 - Mar 06
                                                                                     40
•   Apr 06 - Sept 06                    27.2
•   Oct 06 - Mar 07
                                 12.8                                                20
                          5.4

                                                                                     0




                                                                    Office of Inspector General – Semiannual Report to the Congress 57
  Reporting
  Requirements




   Index of Reporting Requirements - Inspector General Act
   of 1978, as amended
   Reporting Requirements                                              Page
   Section 4(a)(2): Review of legislation and regulations              59
   Section 5(a)(1): Significant problems, abuses, and deficiencies     11-50
   Section 5(a)(2): Recommendations with respect to                    11-50
   significant problems, abuses, and deficiencies
   Section 5(a)(3): Recommendations described in previous semiannual   60
   reports on which corrective action has not been completed
   Section 5(a)(4): Matters referred to prosecutive authorities        10
   Section 5(a)(5) and 6(b)(2): Summary of instances                   64
   where requested information was refused
   Section 5(a)(6): Listing of audit reports                           62
   Section 5(a)(7): Summary of particularly significant reports        11-50
   Section 5(a)(8): Statistical table showing the total number of      63
   audit reports and the total dollar value of questioned costs
   Section 5(a)(9): Statistical table showing the total                64
   number of audit reports and the total dollar value of
   recommendations that funds be put to better use
   Section 5(a)(10): Audit recommendations more than 6 months          64
   old for which no management decision has been made
   Section 5(a)(11): Significant revised management                    64
   decisions during the current reporting period
   Section 5(a)(12): Significant management                            64
   decisions with which the OIG disagreed




58 Office of Inspector General – Semiannual Report to the Congress
                                              Information
                                              Required by the
                                              Inspector General
                                              Act of 1978, as
                                              amended




Review of Legislation and Regulations
  The FDIC Office of Inspector General is tasked under the Inspector General Act
of 1978 with reviewing existing and proposed legislation and regulations relating to
programs and operations of the Corporation and making recommendations in the
semiannual reports required by section 5(a) concerning the impact of such legislation
or regulations on the economy and efficiency in the administration of programs
and operations administered or financed by the Corporation or the prevention and
detection of fraud and abuse in its programs and operations. The Office of Counsel
reviewed legislative developments regarding H.R. 985, Whistleblower Protection
Enhancements Act of 2007; H.R. 1300, the Program for Real Energy Security Act
(PROGRESS Act); S. 495, the Data Privacy and Security Act of 2007 and updates to
the Privacy Act. Additionally, Counsel’s Office reviewed twelve FDIC directives related
to reasonable accommodation, leave, community service, records management,
Section 508 compliance, equal employment opportunity, worker’s compensation,
emergency preparedness, student educational employment program, and protecting
sensitive information, and made comments on various aspects of these directives.


Table I: Significant Recommendations From Previous Semiannual
Reports on Which Corrective Actions Have Not Been Completed
  This table shows the corrective actions management has agreed to implement but
has not completed, along with associated monetary amounts. In some cases, these
corrective actions are different from the initial recommendations made in the audit
reports. However, the OIG has agreed that the planned actions meet the intent of
the initial recommendations. The information in this table is based on (1) information
supplied by FDIC’s Office of Enterprise Risk Management (OERM) and (2) the OIG’s
determination of closed recommendations for reports issued after March 31, 2002.
These 15 recommendations from 13 reports involve improvements in operations and
programs. OERM has categorized the status of these recommendations as follows:
Management Action in Process: (15 recommendations from 13 reports)
  Management is in the process of implementing the corrective action plan, which
may include modifications to policies, procedures, systems, or controls; issues
involving monetary collection; and settlement negotiations in process.

                                    Office of Inspector General – Semiannual Report to the Congress 59
   Table I: Significant Recommendations From Previous Semiannual
   Reports on Which Corrective Actions Have Not Been Completed

    Report Number,                           Significant                        Brief Summary of
    Title & Date                             Recommendation                     Planned Corrective
                                             Number                             Actions and Associated
                                                                                Monetary Amounts
    Management Action In Process
    04-019                                   3                                  Align systems development with
    Enhancements to the FDIC                                                    the FDIC’s Enterprise Architecture,
    System Development Life                                                     establish how funding will be
    Cycle Methodology                                                           reviewed and provided in an
    April 30, 2004                                                              iterative development environment,
                                                                                and update cost-benefit analysis
                                                                                during the life cycle of the system.
    05-016                                   1l                                 Ensure that division and
    Security Controls Over the                                                  office directors provide FDIC
    FDIC’s Electronic Mail                                                      employees and contractors with
    (E-Mail) Infrastructure                                                     sufficiently detailed guidance
    March 31, 2005                                                              to facilitate informed decisions
                                                                                on when to encrypt sensitive
                                                                                e-mail communications.
    EVAL-06-005                              1                                  Develop and issue an overarching
    FDIC Safeguards Over                                                        privacy policy for safeguarding
    Personal Employee                                                           personal employee information.
    Information
    January 6, 2006
    06-008                                   4u                                 Establish a schedule for periodically
    Consideration of Safety and                                                 updating the assessment
    Soundness Examination                                                       rate analysis and reassessing
    Results and Other Relevant                                                  the basis point spreads and
    Information in the FDIC’s                                                   assessment rates, as needed.
    Risk-Related Premium System
    February 17, 2006
    06-009                                   2*                                 Develop, in coordination with
    FDIC’s Guidance to                                                          the joint-agency rulemaking
    Institutions and Examiners for                                              committee, a more aggressive
    Implementing the Gramm-                                                     project management plan that
    Leach-Bliley Act Title V and                                                will expedite the issuance of
    Fair and Accurate Credit                                                    final rules and regulations for
    Transactions (FACT) Act                                                     all FACT Act provisions.
    February 24, 2006
    06-011                                   2u                                 Review existing examiner, financial
    Challenges and FDIC Efforts                                                 institution, and consumer
    Related to Predatory Lending                                                guidance and determine whether
    June 7, 2006                                                                additional guidance is needed
                                                                                to address the risks associated
                                                                                with predatory lending.
     l Management has taken actions to address this recommendation. The OIG plans to assess the effectiveness of those
       actions as part of the OIG's 2007 work under the Federal Information Security Management Act and will then
       determine whether the recommendation can be closed.

     u The OIG has received some information but has requested additional information to evaluate management’s actions
       in response to the recommendation.

     * The OIG has not yet evaluated management’s actions in response to the OIG recommendation.




60 Office of Inspector General – Semiannual Report to the Congress
Table I: Significant Recommendations From Previous Semiannual
Reports on Which Corrective Actions Have Not Been Completed (cont.)

Report Number,                           Significant                       Brief Summary of
Title & Date                             Recommendation                    Planned Corrective
                                         Number                            Actions and Associated
                                                                           Monetary Amounts
06-013                                  2                                  Review the existing Corporate Bylaws
FDIC Reserve Ratio and                                                     to ensure that those delegations
Assessment Determinations                                                  reflect the Board members’ intent and
April 17, 2006                                                             expectations with regard to the deposit
                                                                           insurance fund reserve ratio and
                                                                           assessment determination processes.
                                        3                                  Work with FDIC management to
                                                                           evaluate procedures and practices for
                                                                           keeping Board members informed of
                                                                           Corporation matters and activities.
06-014                                  2                                  Develop and issue clarifying policy or
FDIC’s Industrial Loan                                                     guidance regarding the need for, and
Company Deposit Insurance                                                  importance of, conditions associated
Application Process                                                        with deposit insurance applications.
July 20, 2006
06-015                                  1n                                 Assess, in conjunction with the other
FDIC’s Oversight of                                                        federal banking agencies, regulatory
Technology Service Providers                                               and other options for establishing and
(TSP)                                                                      maintaining a current, accurate, and
July 20, 2006                                                              complete inventory of TSP information.
06-017                                  1                                  Develop a DRR Records Management
DRR’s Protection of Bank                                                   Program that includes guidelines
Employee and Customer                                                      for the inventory, maintenance, use,
Personally Identifiable                                                    and control of hardcopy records
Information                                                                containing personally identifiable
September 15, 2006                                                         information from failed institutions.
06-024                                  1                                  Strengthen guidance related to the
Division of Supervision                                                    monitoring and follow-up processes
and Consumer Protection’s                                                  for compliance violations by revising
Supervisory Actions Taken for                                              the Compliance Examination
Compliance Violations                                                      Procedures to require follow-up
September 29, 2006                                                         between examinations on repeat,
                                                                           significant compliance violations
                                                                           and program deficiencies.
06-025                          1                                          Develop an enterprise-wide approach
Controls for Monitoring                                                    for monitoring user access privileges
Access to Sensitive Information                                            commensurate with the sensitivity of the
Processed by FDIC                                                          FDIC's informations systems and data.
Applications
September 29, 2006
                                        3                                  Develop a written plan that
                                                                           defines a risk-based, enterprise-
                                                                           wide approach to audit logging
                                                                           and monitoring for the FDIC’s
                                                                           portfolio of information systems.
EVAL-06-026                             13                                 Define requirements for the new
FDIC’s Contract                                                            automated procurement system,
Administration                                                             including to address the New
September 29, 2006                                                         Financial Environment shortcomings
                                                                           identified in this report.
 n The OIG has not received information necessary to evaluate management’s actions in response to the recommendation.



                                            Office of Inspector General – Semiannual Report to the Congress 61
  Table II: Audit Reports Issued by Subject Area
                      Audit Report                            Questioned Costs       Funds
                                                                                     Put to
        Number                                                                       Better
                                      Title                  Total     Unsupported
        and Date                                                                      Use
   Supervision
   07-001                FDIC’s Supervision of
   December 14, 2006     Financial Institutions’ OFAC
                         Compliance Programs
   07-002                Division of Supervision
   January 10, 2007      and Consumer Protection’s
                         Information Technology-Risk
                         Management Program
   07-007                Examination Assessment
   March 30, 2007        of the Reliability of
                         Appraisals and Sufficiency
                         of Insurance Coverage
                         for Real Estate Lending
   Consumer Protection
   07-005                Information Technology
   February 5, 2007      Examination Coverage
                         of Financial Institutions’
                         Oversight of Technology
                         Service Providers
   07-008                FDIC’s Implementation of
   March 30, 2007        the 2005 Amendments to
                         the Community Reinvestment
                         Act Regulations
   Resources Management
   07-003                FDIC’s Compliance
   January 10, 2007      with Section 522 of
                         the Consolidated
                         Appropriations Act, 2005
   07-004                Interagency Agreement
   January 10, 2007      with the General
                         Services Administration
                         for the Infrastructure
                         Services Contract
   07-006                Management Report:
   March 28, 2007        Independent Evaluation
                         of the FDIC’s Information
                         Security Program - 2006
   07-009                FDIC’s Contract Planning
   March 30, 2007        and Management for
                         Business Continuity
   Totals for                                           $0             $0            $0
   the Period

62 Office of Inspector General – Semiannual Report to the Congress
Table III: Evaluation Reports Issued
Number and Date                Title
EVAL-07-001                    FDIC’s Succession Planning Efforts
March 28, 2007
EM-07-001                      FDIC’s Management Report Information Flow
March 30, 2007



Table IV: Audit Reports Issued with Questioned Costs
                                                                         Questioned Costs
                                                 Number
                                                                    Total        Unsupported
A. For which no management decision
   has been made by the commencement               0                 0                0
   of the reporting period.
B. Which were issued during the
                                                   0                 0                0
   reporting period.
Subtotals of A & B                                 0                $0                $0
C. For which a management decision
   was made during the reporting                   0                 0                0
   period.
   (i) dollar value of disallowed costs.           0                 0                0
   (ii) dollar value of costs not
                                                   0                 0                0
        disallowed.
D. For which no management decision
   has been made by the end of the                 0                 0                0
   reporting period.
   Reports for which no management
   decision was made within 6 months               0                 0                0
   of issuance.




                                    Office of Inspector General – Semiannual Report to the Congress 63
  Table V: Audit Reports Issued with Recommendations for Better
  Use of Funds
                                                                Number   Dollar Value
   A. For which no management decision has been made
                                                                     0          0
      by the commencement of the reporting period.
   B. Which were issued during the reporting period.                 0          0
   Subtotals of A & B                                                0       $0
   C. For which a management decision was
                                                                     0          0
      made during the reporting period.
      (i) dollar value of recommendations that
                                                                     0          0
          were agreed to by management.
        - based on proposed management action.                       0          0
        - based on proposed legislative action.                      0          0
      (ii) dollar value of recommendations that
                                                                     0          0
           were not agreed to by management.
   D. For which no management decision has been
                                                                     0          0
      made by the end of the reporting period.
      Reports for which no management decision
                                                                     0          0
      was made within 6 months of issuance.



  Table VI: Status of OIG Recommendations Without Management
  Decisions
   During this reporting period, there were no recommendations more than 6 months
  old without management decisions.
  Table VII: Significant Revised Management Decisions
   During this reporting period, there were no significant revised management
  decisions.
  Table VIII: Significant Management Decisions with Which the
  OIG Disagreed
   During this reporting period, there were no significant management decisions
  with which the OIG disagreed.
  Table IX: Instances Where Information Was Refused
   During this reporting period, there were no instances where information was
  refused.

64 Office of Inspector General – Semiannual Report to the Congress
